                                                                             Report No. DODIG-2015-002



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 8, 2014




                     Assessment of DoD-Provided
                     Healthcare for Members of the
                     United States Armed Forces
                     Reserve Components




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
      I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                           Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that supports the warfighter; promotes
        accountability, integrity, and efficiency; advises the Secretary of
                   Defense and Congress; and informs the public.



                                            Vision
        Our vision is to be a model oversight organization in the Federal
        Government by leading change, speaking truth, and promoting
        excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                       Fraud, Waste & Abuse

                                       HOTLINE
                                       Department of Defense
                                       dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                              Results in Brief
                              Assessment of DoD-Provided Healthcare for Members
                              of the United States Armed Forces Reserve Components



October 8, 2014

Objective                                      Observations
The objectives of this assessment were to      This assessment identified several issues which, if addressed
determine whether DoD-provided healthcare      by DoD and the Military Services, will enhance the overall
programs support pre-deployment                effectiveness of DoD-provided healthcare programs, help
medical readiness rates and the efficient      improve the RC’s medical readiness rates, and improve care
and effective post-deployment care of          and transition services for wounded, ill, and injured RC
Reserve Component (RC) service members.        members not receiving care at military treatment facilities.
We examined DoD-provided healthcare
programs used to maintain or improve           The observations included in this report:
required medical readiness rates and              •	 Active Component (AC) service members transferred
also examined DoD-provided healthcare                to the Reserve Component with medical conditions
programs for wounded, ill, and injured               which limited their deployability or for which they
members of the RC.                                   were subsequently found to be non-deployable.
This is a follow-on assessment to six             •	 RC service members who filled deployable billets could
previous Wounded Warrior assessment                  not be officially separated (for medical reasons) from
reports where we noted systemic issues               the RC when they were found fit-for-duty by a medical
with DoD-provided healthcare programs                board, even though they had medically-related limiting
used by RC service members.                          conditions that made them not deployable or only
                                                     deployable with certain waivers.
What We Found                                     •	 Army RC soldiers (not on active duty), who were issued
We determined that RC service members,               temporary medical profiles, had limited access to
when eligible, had access to DoD-provided            DoD-provided healthcare to be medically evaluated in
care to enable units to meet DoD-required            accordance with Army Regulation 40-501.
individual medical readiness rates. We also
determined that line of duty medical care         •	 RC service members returned from deployments or
was available to treat wounded, ill, and             temporary duty with missing or incomplete medical
injured RC service members. However, we              histories and line of duty documentation. As a result,
determined that delayed or denied access             deactivated RC service members had to reconstruct
to line of duty care presented a risk, as            medical histories and line of duty documentation in
outlined in this report.                             order to receive DoD-provided medical care for wounds,
                                                     illnesses, and injuries incurred or aggravated while
                                                     deployed or assigned temporary duty.

                                                  •	 Wounded, ill, and injured RC service members had
                                                     difficulty accessing authorized medical services at
                                                     military treatment facilities because different forms
                                                     were used by each Service to prove line of duty
                                                     medical entitlements.


Visit us at www.dodig.mil


                                                                  DODIG-2015-002 (Project No. D2013-D00SPO-0212.000) │ i
                                       Results in Brief
                                       Assessment of DoD-Provided Healthcare for Members
                                       of the United States Armed Forces Reserve Components




  Recommendations                                            Management Comments and
  We recommend the Under Secretary of Defense for
  Personnel and Readiness:
                                                             Our Response
                                                             The Under Secretary of Defense for Personnel and
      •	 Establish guidance that requires all Active         Readiness provided all comments to this report.
         Component service members who transfer into         Management concurred with all recommendations.
         the Selected Reserve meet Individual Medical
                                                             Based on management comments, we redirected
         Readiness requirements.
                                                             Recommendations 1, 3, 4, and 5 to the office of
      •	 Develop and implement a plan that ensures           Undersecretary of Defense for Personnel and Readiness.
         Reserve Components’ service personnel
                                                             The DoD IG requests that the Under Secretary of
         authorizations allow units to retain service
                                                             Defense for Personnel and Readiness provide additional
         members in accordance with 10 U.S.C. §1214a
                                                             information to Recommendations 1, 2, and 3 of this
         while meeting unit deployment requirements.
                                                             report by more concisely describing the actions and
      •	 Develop and implement a plan so that Army           projected timelines planned to accomplish the intent of
         Reserve Component service members receive           the Recommendations.
         DoD-provided medical evaluations of temporary
                                                             Please provide comments to this final report by
         medical profiles in accordance with AR 40-501.
                                                             November 10, 2014. Management comments to the draft
      •	 Establish policy that assigns responsibilities to   report are included, beginning at page 81 of this report.
         Commanders and medical authorities to manage
         medical histories and line of duty docmentation
         for deployed or temporary duty RC service
         members in a standardized manner across all
         Services, so that both are complete and available
         to their units in a timely manner.

      •	 Establish standardized DoD form(s) and
         procedures that provide access for all RC service
         members to line of duty care at all military
         treatment facilities.




ii │ DODIG-2015-002 (Project No. D2013-D00SPO-0212.000)
Recommendations Table*
                                                          Recommendations           No Additional
                        Management                        Requiring Comment       Comments Required
 Under Secretary of Defense for Personnel and Readiness         1, 2, 3                    4, 5

*Total recommendations in this report: 5

Please provide comments by November 10, 2014.




                                                               DODIG-2015-002 (Project No. D2013-D00SPO-0212.000) │ iii
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                October 8, 2014

MEMORANDUM FOR: UNDERSECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
                ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
                ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

SUBJECT:	 Assessment of DoD-Provided Healthcare for Members of the United States
          Armed Forces Reserve Component (Report No. DoDIG-2015-002)

We are providing this report for information and appropriate action. This report
assesses how DoD-provided healthcare programs enable the Guard and Reserve to meet
required DoD readiness rates. It also provides an assessment of how DoD-provided
healthcare programs support wounded, ill, and injured Guard and Reserve members
who are not receiving medical care at active duty military treatment facilities.

We considered management comments to a draft of this report when preparing the
final report. Comments from the Under Secretary of Defense for Personnel and
Readiness (USD(P&R)), to include comments on behalf of both the Assistant Secretary
of Defense for Reserve Affairs and the Assistant Secretary of Defense for Health Affairs,
were responsive and concurred with all recommendations. However, we request that
USD (P&R) provide additional information regarding actions, planned or undertaken,
with projected timelines to meet the intent of Recommendations 1, 2, and 3 of this report.

Please provide comments that conform to the requirements of DoD Directive 7650.3.
If possible, send your comments in electronic format (Adobe Acrobat file only) to
SPO@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/
symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET). We should receive your comments by November 10, 2014.

We appreciate the courtesies extended to our staff. Please direct questions to
Gregory Ready at (703) 604-9796 (DSN 664-9796) or Elias Nimmer at (703) 604-9114
(DSN 664-9114). We will provide a formal briefing on the results if management requests.




	                                              Kenneth P. Moorefield
	                                              Deputy Inspector General
	                                                Special Plans and Operations




                                                                                         DODIG-2015-002 │ v
Contents
Introduction______________________________________________________________________________1
Noteworthy Practices_____________________________________________________________9
Observations
Observation 1. Active Duty to Selected Reserve Transfer_________________________________ 17
Observation 2. Fit-for-Duty versus Deployability__________________________________________ 23
Observation 3. Follow-up and Evaluation of Army Temporary Medical Profiles________ 27
Observation 4. Medical History and Line of Duty Administrative Requirements_______ 31
Observation 5. Proof of Line of Duty Entitlement Documents for Military Treatment
   Facility Care_______________________________________________________________________________ 35

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 39
Appendix B. Summary of Prior Coverage___________________________________________________ 44
Appendix C. Legislative History and Related Activity_____________________________________ 46
Appendix D. The United States Army Reserve______________________________________________ 48
Appendix E. Reserve Component Access to Care___________________________________________ 51
Appendix F. TRICARE_________________________________________________________________________ 54
Appendix G. Mobilization/Demobilization and Deployment/Redeployment
   Medical Services___________________________________________________________________________ 58
Appendix H. Health Care Assessments______________________________________________________ 61
Appendix I. Reserve Health Readiness Program _ _________________________________________ 63
Appendix J. Fit-for-Duty and Deployment Limiting Conditions___________________________ 65
Appendix K. Extension of Active Duty Orders______________________________________________ 76
Appendix L. Recommendations for Future Assessments__________________________________ 79

Management Comments
Under Secretary of Defense Response_______________________________________________________ 81

Acronyms and Abbreviations______________________________________________ 85




                                                                                                     DODIG-2015-002 │ vii
                                                                                                   Introduction




Introduction
Objectives
The objective of this assessment was to determine the adequacy of policies
and regulations governing the provision of healthcare to members of the
Reserve Components.1

Specifically, the assessment was conducted to determine whether:

         •	 DoD-provided healthcare supports Guard and Reserve pre-deployment
            medical readiness rates so that the Guard and Reserve maintain required
            operational capabilities and provide strategic depth to U.S. forces to meet
            the U.S. defense requirements.
         •	 DoD-provided healthcare supports efficient and effective, post-deployment
            care for Guard and Reserve who become wounded, ill, and injured.


Background
Federal law and DoD policies establish that programs will be in place to support
the medical and dental readiness of Reserve Component (RC) service members so
they comply with Individual Medical Readiness (IMR) requirements.

Federal law and DoD policies also establish that programs will be in place to
provide medical and dental care to RC service members for all wounds, illnesses,
and injuries incurred or aggravated in the line of duty until they have recovered.

Reserve Component Service Status
The status of RC service members’ service status is cyclical in nature and can
generally be broken down into four phases. Figure 1 (page 1) displays the RC
status  cycle and its four phases. Also, the accompanying Table 1 (page 2) explains
the Reserve Component Member Status Cycle.

Figure 1. RC Status Cycle




                                            RC Status Cycle

        Not-AcƟvated                    AcƟvated/                Post Deployment   DeacƟvated
                                       Deployment

Source: DoD IG-SPO.


	1	
      See Appendix D for a detailed description of the Reserve Components.

                                                                                                DODIG-2015-002 │ 1
Introduction



                 Table 1. Reserve Component Member Status Cycle Explanation

                            RC Status                                         Description
                                                  RC service members’ primary responsibilities are training and
                                                  preparing for mobilization. The RC service member is typically in
                     Not-Activated                drilling status, but has not been activated for a period of more than
                                                  30 days. Most RC members perform 38 days of military duty per
                                                  year (monthly 2-day drills + 14-days active duty training).
                                                  RC service members are considered to be on active duty. The RC
                     Activated/Deployment         service member is on active duty orders for a minimum of 30 days
                                                  which includes deployments.
                                                  The RC service member has returned from active duty tour and is
                                                  going through the de-activation process. RC service members are
                     Post Deployment              still considered to be on active duty, however their primary mission
                                                  is complete, and the member is generally on reconstitution time
                                                  and accrued leave.
                                                  The RC service member has been released from active duty
                     Deactivated                  (REFRAD). RC service members are no longer considered to be on
                                                  active duty.


                 RC service members receive different DoD-provided healthcare entitlements in each
                 different RC status. Table 2 (page 2-3) outlines the entitlements for each status.

                 Table 2. RC Status and DoD-Provided Healthcare Entitlements (Refer to Appendix E)

                                        DoD-Provided
                       RC Status                                                   Entitlement
                                         Healthcare
                                                          The RC service member may have private or public
                                         Civilian Care    healthcare insurance available or be uninsured.
                                          (Not DoD-       Qualified members may also receive care through the
                                          Provided)       Veterans Administration.
                                                          A premium-based healthcare insurance plan available to
                                           TRICARE        qualified selected Reserve members of the ready Reserve.
                                        Reserve Select    (Refer to Appendix D)
                                                          Worldwide dental care plan offered to eligible
                                        TRICARE Dental    beneficiaries by the Department of Defense through the
                                                          TRICARE Management Activity.
                                                          A Department of Defense, Health Affairs program
                                        Reserve Health    designed to supplement the RC by providing Periodic
                     Not-Activated        Readiness       Health Assessment (PHA), Post-Deployment Health
                                           Program        Reassessment (PDHRA), and other IMR services that satisfy
                                                          key deployment requirements.
                                                          RC service members in receipt of valid mobilization
                                     TRICARE 180-Day      orders are eligible for military health benefits under the
                                       Early Benefit      TRICARE Early Eligibility Program – for up to 180 days prior
                                                          to mobilization.
                                                          RC service members may be covered by Line of Duty care
                                                          for a wound, illness, or injury determined to be incurred
                                                          or aggravated while in a qualifying duty status or while
                                     Line of Duty Care    traveling to or from the place of duty. Qualifying status
                                                          may include inactive duty (drill) funeral honors duty, or
                                                          active duty.




2 │ DODIG-2015-002
                                                                                                       Introduction



                  DoD-Provided
   RC Status                                                 Entitlement
                   Healthcare
                                     The Army, Navy, and Marine Corps mobilize and
                   Mobilization      demobilize through specific locations that provide
                 Processing Sites    additional medical care to facilitate the mobilization
                                     and demobilization process.
                                     TRICARE Prime and TRICARE Prime Remote provide
                                     comprehensive health coverage, including enhanced
                  TRICARE Prime      preventive care and vision benefits, without the cost
   Activated/                        of a premium.
  Deployment                         While activated for a period of more than 30 consecutive
                     TRICARE         days, RC service members are covered as active duty
                  through end of     service members. Upon reaching their final (mobilization/
                    Active Duty      deployment) station for activation or deployment, they
                      Status         can enroll in TRICARE Prime, TRICARE Prime Remote.
                                     While in-theater the RC service member receives the
                    In-theater       same medical and dental support as their active
                     Support         component counterparts.
                                     The RC member is covered by TRICARE Prime or TRICARE
                                     Prime Remote until all accrued leave and compensatory
                  TRICARE Prime      time expires and the RC member officially comes
     Post                            off orders.
  Deployment
                                     RC service members can be recalled to active duty or
                   Extension of      have their current orders extended to receive authorized
                   Active Duty       medical care and treatment.
                   Transitional      TAMP provides 180 days of transitional healthcare benefits
                    Assistance       after RC service members come off eligible mobilization or
                   Management        deployment orders.
  Deactivated        Program
                                     RC service members receive medical treatment for
                 Line of Duty Care   wounds, illnesses, or injuries incurred or aggravated in the
                                     line of duty.
Source: Defense Health Agency


Individual Medical Readiness Rates
DoDI 6025.19, “Individual Medical Readiness (IMR),” June 9, 2014, established
IMR requirements for units and individuals of the Active and Selected Reserve
Components. IMR rates provide operational commanders and service leaders with
a summary of the medical status of the force. IMR rates are assessed against
six elements (listed below) of health and fitness used to determine the deployment
availability of units and individuals. The IMR elements are:

     •	 Periodic Health Assessments (PHA),
     •	 deployment-limiting medical and dental conditions,
     •	 dental assessment,




                                                                                                    DODIG-2015-002 │ 3
Introduction



                          •	 immunization status,
                          •	 medical readiness and laboratory studies, and
                          •	 Individual medical equipment.

                 Each Military Department assesses and develops procedures to report the overall
                 IMR status of each service member according to the following categories:

                          •	 Fully Medically Ready – service members who are current in PHA
                             (completed), dental readiness classification2 (DRC) 1 or 2, immunization
                             status, medical readiness and laboratory studies, individual medical
                             equipment; and without any deployment limiting medical conditions.
                          •	 Partially Medically Ready – service members who are lacking one or more
                             immunizations, medical readiness laboratory studies, and/or individual
                             medical equipment.
                          •	 Not Medically Ready – service members with a chronic or prolonged
                             deployment-limiting medical or mental health condition. These conditions
                             may also include hospitalization, recovery or rehabilitation time from a
                             serious illness or injury, and/or individuals in DRC 3.
                          •	 Medical Readiness Indeterminate - Inability to determine a service
                             members’ current health status because of missing health information
                             such as a lost medical record, an overdue PHA and/or being in DRC 4.

                 According to information provided by the Defense Health Agency (DHA), using
                 the aforementioned six elements cited in DoDI 6025.19, the combined Reserve
                 Component IMR rate remained below the targeted goal of 75 percent from
                 CY 2009 through CY 2013. 3 Refer to Figure 2 (page 5).




                 	2	
                       DRC 1- service members with a current dental examination who do not require dental treatment or reevaluation and
                       are world-wide deployable in regards to dental health. DRC 2 – service members with a current dental examination who
                       require non-urgent dental treatment or reevaluation for oral conditions that are unlikely to result in dental emergencies
                       within 12 months and are world-wide deployable in regards to dental health. DRC 3- service members who require
                       urgent or emergent dental treatment and are normally not considered world-wide deployable. DRC 4- service members’
                       dental readiness classification is undetermined by virtue of being overdue for their annual dental examination.
                 	3	

                         COMPO/YEAR               2009                 2010                2011                2012                2013

                        ARNG                      28%                  38%                 42%                 54%                 52%

                        USAR                      22%                  38%                 43%                 52%                 46%

                        USNR                      79%                  80%                 84%                 84%                 85%

                        ANG                       78%                  79%                 80%                 81%                 82%

                        AFRC                      70%                  82%                 84%                 83%                 86%

                        MARFORRES                 53%                  57%                 63%                 68%                 70%

                       Source: Defense Health Agency.




4 │ DODIG-2015-002
                                                                                         Introduction



Figure 2. Combined Reserve Component Individual Medical Readiness Rates




Source: Defense Health Agency

Not maintaining the targeted IMR rates put RC service members at risk of being
not fully medically ready. Also, low IMR rates risked either delays in required
deployments or the inability to deploy required units.


Scope
Given the scope of this project, we determined that we would assess first the Guard
and Reserve units and members located in the continental United States (CONUS).
We intended to assess units and RC service members outside CONUS if the report
process indicated a unique requirement to do so, which it did not.


Methodology
First, our data collection process involved obtaining each RC IMR rate from DHA.

We then reviewed documents such as Federal laws and regulations, the National
Defense Authorization Act, Chairman of the Joint Chiefs of Staff instructions,
DoD directives and instructions, and relevant service directives, instructions,
and orders.




                                                                                      DODIG-2015-002 │ 5
Introduction



                 We also reviewed previous reports from the Government Accountability Office
                 (GAO), DoD IG, RAND, and the DoD Recovering Warrior Task Force. This review
                 included six recent DoD IG assessments of Wounded Warrior matters with
                 respect to RC service members who were assigned or attached to Wounded
                 Warrior organizations.

                 Finally, we conducted site visits and interviews throughout the CONUS as shown in
                 Figure 3 below. Appendix A provides the list of organizations we contacted through
                 site visits, teleconferences, and requests for information.

                 Figure 3. Sites Visited or Contacted (Refer to Appendix A, Scope and Methodology)




                 Source: DoD IG SPO.


                 What We Found
                 Support of Individual Medical Readiness Rates
                 According to the Defense Health Agency (DHA), the combined RC IMR rate for
                 calendar years 2009 through 2013 remained below the established DoD goals.

                 During our assessment we determined that RC service members, when eligible,
                 had access to DoD-provided care to enable RC units to meet IMR requirements.
                 TRICARE (Defense Health Agency) offered the majority of these programs. We
                 also observed breaks in RC Service members’ eligibility for TRICARE coverage,
                 depending on their service status. Breaks in eligibility resulted in RC service
                 members losing access to DoD-provided healthcare.




6 │ DODIG-2015-002
                                                                                                                                 Introduction



However, the TRICARE Reserve Select healthcare insurance plan could be used by
RC service members to continue healthcare coverage during breaks in eligibility.
While TRICARE Reserve Select was available, it was voluntary and required the
payment of premiums by the RC service members. We did not assess the effect of
non DoD-provided healthcare on RC service members’ medical readiness.

We noted that current Service policies and procedures authorized AC service
members who were not medically deployable to transfer into RC units.
Furthermore, federal law prohibits the involuntary separation of RC service
members found fit-for-duty but not deployable. These circumstances could
potentially contribute to the lowering of IMR rates for RC units.

Support of Wounded, Ill, and Injured
We also found that DoD-provided line of duty medical care 4 to restore wounded,
ill, and injured RC service members to a medical status that satisfied IMR
requirements. However, their access to line of duty medical care entitlements was
at risk of either being delayed or denied because of administrative requirements
such as incomplete medical histories or line of duty documentation. Consequently,
some RC service members received delayed healthcare or were denied access to
DoD-provided healthcare.




	4	
      Line of duty medical care are DoD-provided entitlements available to RC service members who incurred or aggravated
      wounds, illnesses, and injuries in the line of duty, while on active duty, or due to other qualifying service status.




                                                                                                                              DODIG-2015-002 │ 7
                                                                               Noteworthy Practices




Noteworthy Practices
During this assessment we observed five noteworthy practices. Each of these
five practices positively affected DoD’s ability to support RC medical readiness
rates so that the Guard and Reserve maintained operational capabilities
and provided depth to meet U.S. defense requirements. Notable practices
observed included:

     •	 RCs’ consistent provision of qualified service members available for
        active duty,
     •	 TRICARE’s coverage of RC service members throughout the entire
        RC Status Cycle,
     •	 Services’ medical care provided at mobilization and demobilization
        processing sites,
     •	 Services’ management of the Individual Ready Reserve, and
     •	 DoD’s authorization for non-DoD medical provider approval on Medical
        Forms DD 2807-1 and DD 2813.


Reserve Components’ Consistent Provision of Qualified
Service Members Available for Active Duty
This noteworthy practice addresses RCs’ consistent provision of qualified personnel
available for active duty mission requirements.

In accordance with section 10102, title 10, United States Code (10 U.S.C. § 10102
[2011]), the RCs consistently provided units and qualified personnel available for
active duty. RC units reported minimal deployment limitations due to medical
issues, despite having IMR rates lower than DoD required. The units replaced
non‑deployable service personnel with deployable service personnel from within
their units or from other units.


TRICARE Coverage throughout the Entire Reserve
Component Status Cycle
TRICARE healthcare entitlements were available to RC service members throughout
the entire RC Status Cycle. (Refer to Table 2 on page 2-3 for a listing of each
TRICARE entitlement available in each service status). Appendix F provides further
information about TRICARE.




                                                                                      DODIG-2015-002 │ 9
Noteworthy Practices



                 At a minimum, RC service members were eligible for TRICARE medical and
                 dental care 180 days prior to activation, during activation, and 180 days after
                 deactivation. TRICARE also provided line of duty medical care entitlements to
                 RC Service members who became wounded, ill, and injured while on active duty
                 or other qualifying status.

                 The TRICARE Reserve Select healthcare insurance plan provided continued
                 healthcare coverage to RC service members during breaks in eligibility. TRICARE
                 Reserve Select is available to all members of the Selected Reserve who are not on
                 active duty, not covered by the Transitional Assistance Management Program, and
                 not eligible for, or enrolled in the Federal Health Benefits program.

                 Different component Reserve Surgeons reported that, in their opinion, TRICARE
                 Reserve Select was a viable medical insurance option compared to non-DoD
                 procured insurance.

                 DHA reported a steady overall increase in TRICARE Reserve Select enrollment
                 numbers. The TRICARE Reserve Select total enrollment rose from approximately
                 ten thousand to over one hundred thousand between October 2007 and January
                 2014. This enrollment included Selected Reserve service members and their family
                 members. Also, according to DHA, TRICARE Reserve Select provides the minimum
                 essential coverage required under the Affordable Care Act. Appendix F provides an
                 explanation of TRICARE Reserve Select.

                 However, TRICARE Reserve Select healthcare insurance is:

                      •	 voluntary,
                      •	 requires payment of insurance premiums, and
                      •	 only available to qualified Selected Reserve members and their families.


                 Services’ Medical Care Provided at Mobilization and
                 Demobilization Sites
                 This noteworthy practice addresses services’ medical care provided to RC service
                 members at mobilization and demobilization sites. These medical services are
                 vital to the RC service members while in the Activated/Deployment and Post-
                 Deployment phases of the RC Status Cycle as shown in Figure 4 (page 11).
                 Appendix G explains medical services available for mobilization/demobilization
                 deployment/redeployment.




10 │ DODIG-2015-002
                                                                                                                  Noteworthy Practices



Figure 4. RC Status Cycle




                                           RC Status Cycle
                                            X                             X
       Not-AcƟvated                   AcƟvated/                 Post Deployment                  DeacƟvated
                                     Deployment
Source: DoD IG-SPO.

U.S. Army, Navy, and Marine Corps mobilization site medical services positively
affected the services’ ability to achieve required medical readiness rates for
operational deployment requirements. These medical services also ensured
post‑deployment/demobilization care for wounded, ill, and injured RC
service members.

U.S. Army Soldier Readiness Processing Centers
The Army’s Soldier Readiness Processing (SRP) Centers ensured RC soldiers met
specific medical and dental requirements prior to activation or deployment. The
centers also provided treatment and follow-up care for redeploying or deactivating
wounded, ill, and injured RC soldiers. The SRP Centers also processed active duty
soldiers and deploying civilian contractors.

The SRP Centers either remedied soldiers’ deployment limiting conditions or had
the conditions waived if possible. This was usually done within 25 days of soldiers’
arrival to the SRP centers. RC soldiers were released from active duty (REFRAD), 5
and subsequently not deployed, whenever the SRP Centers could not remedy the
deployment limiting conditions or have them waived.

SRP Centers assessed re-deploying units approximately 120 days prior to the
unit’s re-deploying date to determine the requirements to support the returning
unit.6 The SRP Center conducted post-deployment health assessments and supplied
returning RC soldiers with individualized treatment plans for wounds, injuries, and
illnesses suffered during their deployment. This included making the determination
of whether the RC soldier should be transferred to a Warrior Transition Unit,7
finalizing any line of duty documentation, and ensuring RC soldiers had access to
medical treatment upon being deactivated.

	5	
    Release from Active Duty (REFRAD), Activated RC service members who are found ineligible to remain on active duty.
	6	
    In some instances, RC Service members are returned from deployment early to allow adequate time to remedy required
    medical conditions while the RC member is still on active duty orders.
	7	
    The mission of a Warrior Transition Unit is to successfully transition soldiers and their families back to the Army or
    to civilian life, through a comprehensive program of medical care, rehabilitation, professional development, and
    achievement of personal goals.

                                                                                                                         DODIG-2015-002 │ 11
Noteworthy Practices




                      Figure 5. Airmen Complete Re-Deployment Medical Requirements, Grissom ARB, Indiana
                      Source: Grissom Air Reserve Base Public Affairs


                 Notably, in some instances, certain RC service members were actually returned
                 early from their deployment to the SRP Center to allow adequate time to remedy
                 medical conditions while the member was still on active duty orders.

                 U.S. Navy and Marine Corps Mobilization and Demobilization
                 Processing Sites
                 The Navy and Marine Corps mobilization processing sites also ensured RC
                 service members met specific medical requirements during activation or prior to
                 deployment. The sites also provided treatment and follow-up care for wounded,
                 ill, and injured RC service members during deactivation or redeployment. Prior to
                 activation or deployment, the mobilization processing sites attempted to remedy
                 RC service members’ deployment limiting conditions. In the event a remedy was
                 unavailable, the mobilization processing site either attempted to secure a waiver
                 for the non-deployable condition or released the member from active duty and
                 the deployment.

                 Both the Navy and Marine Corps processing sites could generally prepare all
                 RC service members to deploy and the sites’ medical disqualification rates were
                 usually less than 2 percent.




12 │ DODIG-2015-002
                                                                                               Noteworthy Practices



Upon returning from deployment, the mobilization processing sites conducted RC
service members’ post deployment health assessments. The mobilization processing
sites used the assessments to determine whether returning RC service members
should be retained on active duty orders to receive necessary medical treatment
for wounds, illnesses, and injuries incurred or aggravated while in the line of duty.
The sites also aided the RC service member in obtaining documentation required
for line of duty determinations.

Overall, processing centers ensured that RC service members met specific medical
and dental requirements upon activation and prior to deployment, if any. They also
provided treatment and follow-up care during re-deployment for wounded, ill, and
injured RC service members.


Services’ Management of the Individual Ready Reserve
This noteworthy practice addresses the Services’ medical management of the
Individual Ready Reserve (IRR). This medical management is vital to the IRR
while in the Not-Activated status in the RC Status Cycle shown in Figure 6 below.
Appendix D provides an explanation of the IRR.

Figure 6. RC Status Cycle




                                              RC Status Cycle
              X
         Not-AcƟvated                     AcƟvated/                 Post Deployment   DeacƟvated
                                         Deployment

Source: DoD IG-SPO.

The Army and Marine Corps medical management of their IRR personnel positively
affected the IRR’s ability to manage its medical readiness in order to meet required
operational deployment capabilities.

The Army used a selective approach to monitor the medical readiness of their
IRR. The Army reported that one-third of their estimated 91,000 to 92,000 IRR
members muster8 yearly. During these musters, IRR members completed their
Periodic Health Assessments (PHA) and annual dental examinations through the
Army Reserve PHA program and Army Selected Reserve Dental Readiness System.



	8	
      A muster is an assembling of troops in order to conduct a specific task.




                                                                                                   DODIG-2015-002 │ 13
Noteworthy Practices



                 These services were primarily contracted through the Reserve Health Readiness
                 Program (RHRP). Appendix H provides an explanation of PHAs and Appendix I
                 provides an explanation of the RHRP.

                 Likewise, the Marine Corps Individual Reserve Support Activity (MCIRSA)9
                 managed an estimated 68,000 IRR Marines. MCIRSA focused on members who
                 were in the IRR from 6 months after their active duty contract expired to 2 years
                 after joining the IRR. MCIRSA ensured this group of IRRs had their DD Form 2807,
                 “Report of Medical History” completed every 2 years and that all post-deployment
                 health reassessments were completed. MCIRSA assisted these IRR members in
                 obtaining any required line of duty determination documentation. MCIRSA also
                 provided IRR Marines access to DoD medical providers during musters.

                 MCIRSA primarily managed this group of IRRs with the use of musters. Musters
                 were typically conducted at Marine training centers and involved approximately
                 100 to 150 IRR Marines. Larger musters were typically conducted at hotels
                 or Veterans Affairs (VA) venues and involved approximately 800 to 1,000 IRR
                 Marines. MCIRSA generally conducted 10 to 12 large musters per year with the
                 support of $2 million provided by the Headquarters Marine Corps, Program and
                 Resources office.

                 MCIRSA used specific criteria to select IRR Marines for muster. Muster criteria
                 included home of record, time served in the IRR, and combat veteran status.
                 MCIRSA also selected the Marines who needed medical examinations or
                 documentation updated.

                 Overall, selective mustering of the IRR was an effective approach to monitor the
                 medical readiness of the IRR.


                 DoD’s Authorization for Non-DoD Medical Provider
                 Approval on Medical Forms DD 2807-1 and DD 2813
                 During our assessment, we noted RC service members who did not reside
                 geographically close to their units or to military treatment facilities. These
                 members had limited access to DoD medical providers for timely approval of
                 medical forms required to verify medical status. Allowing non-DoD (private or
                 Veterans Administration) medical providers to approve the DD 2813 “Active Duty,
                 Reserve, Guard, Civilian Forces Dental Examination” and DD 2807-1 “Report of
                 Medical History” was a noteworthy practice that had a positive impact on units’
                 ability to keep RC service members’ medical status current.


                 	9	
                       MCIRSA was generally able to provide one DoD medical provider per muster. This medical provider generally
                       accomplished 30 to 40 complete physical screenings per muster.




14 │ DODIG-2015-002
                                                                            Noteworthy Practices



DD 2813 is used to record the assessment of a RC service member’s dental health.
The form also records determination of fitness for prolonged military duty without
access to dental care. DD 2807-1 records the medical history of a RC service
member and is used to determine whether RC service members incurred any
medical events causing them to be non-deployable or not fit for duty. Authorizing
non-DoD medical providers to sign both of these forms greatly alleviated RC
service members’ challenge of keeping their medical status current.




                                                                                 DODIG-2015-002 │ 15
                                                                                                                                    Observation 1




Observation 1
Active Duty to Selected Reserve Transfer
Active Component (AC) service members transferred into the Selected Reserve10
with medical conditions which limited their deployability or for which they were
subsequently found non-deployable.

This occurred because established medical entrance criteria used by the Services
did not prevent the transferring of medically-limited or non-deployable AC service
members to the Selected Reserve.

As a result, medically limited or non-deployable AC service members transferred to
the Selected Reserve, which decreased Individual Medical Readiness (IMR) rates.

	10	
       The Selected Reserve includes those units and individuals within the Ready Reserve designated as so essential to initial
       wartime missions, that they have priority over all other Reserves.




Applicable Criteria
DoDI 6025.19, “Individual Medical Readiness (IMR),” June 9, 2014 requires quarterly
reports summarizing the IMR status of all Service members, officer and enlisted,
of the Active Component and Selected Reserve. It also states that the presence of
a potentially deployment limiting medical condition renders a service member not
medically ready (non-deployable).

DoDI 6130.03, “Medical Standards for Appointment, Enlistment, or Induction in
the Military Services,” April 28, 2010, explains that it is DoD policy to “ensure that
individuals under consideration for appointment, enlistment, or induction into
military services are medically adaptable to the military environment without the
necessity of geographic area limitations.”

DoDI 6490.07, “Deployment-Limiting Medical Conditions for Service Members and
DoD Civilian Employees,” February 5, 2010, directs Secretaries of the Military
Departments to ensure that DoD personnel who occupy deployable positions
maintain a high state of pre-deployment health and medical readiness.

Each Service has established medical criteria for service members currently in the
AC to transfer into the RC.

          •	 Army: Army Regulation 601-280, “Army Retention Program,” 2006, with
             rapid action revision in 2011, paragraph 7-4, states that soldiers fully
             eligible to re-enlist in the Regular Army based on their last physical
             examinations are qualified to join the RC without regard to the date of



                                                                                                                                  DODIG-2015-002 │ 17
Observation 1



                                 their last physical examination.11 However, as of May 27, 2014, a request
                                 to change this regulation was under review by Headquarters, Department
                                 of the Army G-1, to ensure soldiers’ PHAs are up to date and soldiers meet
                                 re-enlistment requirements in order to transfer from the AC to the RC.
                           •	 Navy: COMNAVCRUITCOMINST 1131.2E, “Navy Recruiting Manual -
                              Officer,” 2011, and COMNAVCRUITCOMINST 1130.8J “Navy Recruiting
                              Manual – Enlisted,” 2011 designate active duty Navy service members
                              who separated less than 6, months who meet the following criteria are
                              able to transfer to the RC with no further medical review required:
                                       {{   The member is physically qualified for separation from the AC.
                                       {{   The member is not changing designators (job specialty).
                                       {{   The member has no factors that would limit world-wide
                                            assignment of deployability.
                                       {{   The member does not have a VA disability compensation pending.
                           •	 Marine Corps: NAVMED P-117 Article 15-22, “Manual of the Medical
                              Department,” May 10, 2014 states that all applicants to the Marine Corps
                              Selected Reserve who have transferred from the AC within the previous
                              6 months of separation must:
                                       {{   Provide a copy of their DD Form 2807-112 completed prior to
                                            separation from the RC as well as an updated DD Form 2807‑1,
                                            (both DD Forms 2807-1 must be reviewed by an appropriate
                                            medical examiner),
                                       {{   receive a physical examination and appropriate laboratory
                                            tests, and
                                       {{   complete a retention package if any new or previously existing
                                            medical condition has arisen or significantly changed since
                                            separation from AC.
                           •	 Air Force: Air Force Instruction 48-123, “Medical Examinations and
                              Standards,” November 5, 2013, Chapter 7, 7.5.2.2. explains that AC
                              members transferring to the Air Reserve Component require a mandatory
                              medical examination. The AF 42213 is used to document transferring
                              members’ retention qualifications. Also, AC members with current periodic
                              health assessments will complete a DD 269714 within 180 days of transfer.



                 	11	
                        AR 601-280, paragraph 7-4 states that soldiers fully eligible to reenlist in the Regular Army based on their last physical
                        examination are qualified to join the RC without regard to the date of the last physical examination. Soldiers who have
                        a permanent profile resulting in a disqualification for duty in their primary military occupational specialty (MOS) must
                        have the results of an MOS medical retention board authorizing retention in the Active Army.
                 	12	
                        DD Form 2807-1 is a Report of Medical History.
                 	13	
                        AF 422 is a Physical Profile Serial Report.
                 	14	
                        DD 2697 is uses to provide a comprehensive medical assessment for AC and RC members separating or retiring from AD.




18 │ DODIG-2015-002
                                                                                                                                  Observation 1



Discussion
Despite established AC-to-RC transfer criteria, medically-limited or non-deployable
AC service members have been allowed to transfer into Selected Reserve units.
While transferring, these AC members may not be in violation with DoDI 6130.03
and DoDI 6490.07; however, this is at variance with IMR rate goals.

DoDI 6025.19 states that the presence of a potentially deployment limiting medical
condition renders a service member not medically ready (non-deployable). IMR
rate goals are established against the overall medical readiness (deployability) of
the Selected Reserve. Therefore, Selected Reserve service members who are not
medically ready (non-deployable), lower the IMR rates.

DoDI 6130.03 directs that individuals under consideration for appointment,
enlistment, or induction into Military Services are medically adaptable to the
military environment without the necessity of geographical area limitations.
DoDI 6490.07 directs that the Military Departments ensure that DoD personnel
who occupy deployable positions maintain a high state of pre-deployment health
and medical readiness.

Several RC unit commanders noted that the transfer of AC service members with
deployment limiting conditions into Selected Reserve units degraded their unit
IMR rates. According to established IMR requirements, any service member with a
deployment limiting condition cannot be rated fully-medically-ready.

RC medical leaders and staff members interviewed expressed concern about AC
service members with deployment limiting conditions being transferred to the RC.
During our assessment, one Reserve Component Surgeon explained that the medical
criteria for transferring AC service members to the RC were not as stringent as the
criteria required for personnel entering military service for the first time. He also
explained that AC service members who transferred into RC units with medical
conditions degraded RC units’ readiness rates.

Another Reserve Component Surgeon expressed essentially the same concern - that
many AC service members joined the RC with medical conditions limiting their
deployability. A headquarters medical staff at an RC base also stated that a number
of AC service members who were not medically deployable had been allowed to
transfer into RC units.15




	15	
       This headquarters-level medical staff was responsible for managing all medical activities for all RC members assigned to
       the base visited during this assessment.




                                                                                                                              DODIG-2015-002 │ 19
Observation 1



                 Another Reserve Component Surgeon’s staff recommended that the medical
                 condition of AC personnel requesting transfer to the RC should be better monitored.
                 They pointed out that the occurrence of transitioned AC-to-RC service members
                 initiating line of duty (LOD)16 medical care arrangements at their very first RC drill
                 activities was not uncommon.

                 When these types of AC to RC personnel actions occur, in accordance with
                 DoDI 6025.19, service members with a deployment limiting condition will be
                 assessed as not-medically-ready. As a result, the assignment of these service
                 members rated as not-medically-ready lowers the RC unit’s individual medical
                 readiness rates.


                 Conclusion
                 Each Service had established medical criteria for service members currently
                 serving in the AC to transfer into the RC. However, it was evident that, even with
                 established criteria, AC service members with deployment limiting conditions were
                 not restricted from transferring into the RC. Consequently, transferring AC service
                 members who were rated as not-medically-ready put their RC units at risk of not
                 meeting DoD-required IMR rates.


                 Recommendations, Management Comments, and
                 Our Response
                 Redirected Recommendation
                 Recommendation 1 was originally directed to the Assistant Secretary of Defense
                 for Reserve Affairs ((ASD(RA)) for response. The Under Secretary of Defense
                 for Personnel and Readiness ((USD(P&R)) responded on behalf of ASD(RA) and
                 requested we redirect the recommendation to their office, which we have done.

                 Recommendation 1
                 We recommend that the Under Secretary of Defense for Personnel and
                 Readiness establish guidance that requires all Active Component service
                 members who transfer into the Selected Reserve meet Individual Medical
                 Readiness requirements.




                 	16	
                        Line of duty medical care is authorized for wounds, illnesses, and injuries incurred or aggravated while on active duty or
                        in a qualified status.




20 │ DODIG-2015-002
                                                                                                                                Observation 1



Under Secretary of Defense for Personnel and Readiness
USD(P&R) concurred with comment to Recommendation 1. USD(P&R), responding
for ASD(RA) stated that each Service implemented AC to RC transfer policies based
on DoDI 6130.03.

USD(P&R) also stated that DoDI 1200.15, “Assignment to and Transfer Between
Reserve Categories, Discharge from Reserve Status, Transfer to the Retired
Reserve, and Notification of Eligibility for Retired Pay,” 13 March, 2014, clarified
the requirements for Service members to be physically fit before being able to
transfer or access into the Selected Reserve.

Our Response
Comments from USD(P&R) were partially responsive. While concurring with the
recommendation, the response did not address some of the actions required in
the recommendation.

DoD IG acknowledges that each Service has established AC to RC transfer policy
based on DoDI 6130.03. However, despite established AC-to-RC transfer criteria, we
found that medically-limited or non-deployable AC service members transferred
into the Selected Reserve.

USD(P&R) also stated that the policy noted in DoDI 1200.15 clarified the
requirements for Service members to be physically fit before being able to
transfer or assess into the Selected Reserve. DoDI 1200.15, Enclosure 3, states
that Ready Reserve17 membership may be obtained by transfer as required on
release from active duty under section 651 and 10145 of title 10, United States
Code (10 U.S.C. §§ 651 & 10145 [2012]).

Section 651 of 10 U.S.C., “Members: required service” does not specifically address
or clarify the need for service members to be physically fit before being able to
transfer or access into the Selected Reserves. Likewise, section 10145 of 10 U.S.C,
“Ready Reserve: placement in” does not specifically address or clarify the need for
service members to be physically fit before being able to transfer or assess into the
Selected Reserves.

In response to the final report, we request that USD(P&R) describe its plan to
establish guidance that directs the Services to establish criteria and procedures
that will ensure AC service members who transfer into the Selected Reserve meet
IMR requirements.


	17	
       The Ready Reserve is the primary manpower pool of the reserve components. The Ready Reserve consists of three
       reserve component subcategories: Selected Reserves, Individual Ready Reserves, and Inactive National Guard. Refer to
       Appendix D.




                                                                                                                              DODIG-2015-002 │ 21
                                                                                                                                Observation 2




Observation 2
Fit-for-Duty versus Deployability
Reserve Component service members – who filled deployable billets – could not be
involuntarily separated when they were found fit-for-duty by a medical board, even
though they had medical conditions which limited their deployability.

This occurred because section 1214a, title 10, United States Code (10 U.S.C. § 1214a
[2012]) prohibits the separation of a service member who has been determined
fit-for-duty but unsuitable for deployment. Also, DoDI 1332.38, “Physical Disability
Evaluation,” 2013, prescribes that deployment limiting conditions will not be the
sole basis for fit-for-duty determination.

As a result, unit IMR rates and operational deployment capabilities were degraded
by retaining RC service members who were found fit-for-duty but not deployable or
only deployable with certain medical waivers.



Applicable Criteria
Section 1214a, title 10, United States Code prohibits the involuntary separation
or denial of reenlistment of service members who have been determined by a
Physical Evaluation Board (PEB) to be fit-for-duty, but were also determined to be
unsuitable for deployment or worldwide assignment.

DoDI 1332.38 designates that the “inability to perform duties in every geographic
location, and under every conceivable circumstance, will not be the sole basis for a
finding of unfitness.”

DoDI 6025.19 established IMR requirements for units and individuals of the Active
and Reserve Components.

DoDI 6490.07 directs that Service Secretaries shall ensure that DoD personnel, who
occupy deployable positions, maintain a high state of pre-deployment health and
medical readiness.

Discussion
Several RC unit commanders we interviewed reported that the PEB18
fitness evaluations had found service members fit-for-duty while they had
medically‑related deployment limiting conditions. According to DoDI 1332.38,


	18	
       AR 40-501 explains that soldiers who receive medical or surgical care, or are recovering from wounds, illnesses, and
       injuries, are managed with temporary medical profiles.




                                                                                                                              DODIG-2015-002 │ 23
Observation 2



                 a service member may be fit-for-duty, but deployment limited. DoDI 1332.38 states
                 that “when a service member’s office, grade, rank, or rating requires deployability,
                 and the member’s medical condition prevents positioning the member outside
                 the CONUS, the member’s inability to perform their duties in every geographical
                 location will not be the sole basis for a finding of unfit-for-duty.”

                 Once a PEB finds a service member with a medical condition to be fit-for-duty,
                 that member’s involuntary separation from the Service cannot be based on the
                 same medical condition for which the service member was evaluated by the PEB.
                 As such, service members with medical conditions were allowed to remain in
                 the Service. Service members with medical conditions could not be counted as
                 fully‑medically‑ready for deployment according to DoDI 6025.19. Therefore, service
                 members with deployment limiting medical conditions risked lowering their units’
                 IMR rates to levels below DoD requirements.

                 RC unit commanders expressed concerns that the requirement to keep members
                 in the Service with deployment limiting conditions, even though they may have
                 been found fit for duty, lowered their units’ IMR rates. RC service members with
                 deployment limiting conditions continued to impact their units’ IMR rates until
                 they either became medically deployable or departed the unit.

                 The retention of fit-for-duty RC service members with deployment limiting
                 conditions limited the implementation of DoDI 6490.07. DoDI 6490.07 directs
                 Military Departments to ensure that DoD personnel who occupy deployable
                 positions maintain a high state of pre-deployment health and medical readiness.

                 During our assessment, different commanders and their staffs recommended
                 how they would resolve the inconsistency between DoD requirements to retain
                 service members in RCs with deployment limiting conditions, and maintaining
                 required RC rates of medical readiness. One common recommendation suggested
                 creating a number of additional non-deployable billet positions to which service
                 members with deployment limiting conditions could be assigned. Another common
                 recommendation suggested re-designating a number of existing billet positions
                 as non-deployable to which service members with deployment limiting conditions
                 could be assigned. Appendix J provides further information about fit-for-duty and
                 deployment limiting conditions.




24 │ DODIG-2015-002
                                                                                    Observation 2



Conclusion
Retention of RC service members with medically-related deployment limiting
conditions risked lowering RC’s IMR rates. However, both Federal law and DoD
instructions established requirements to retain fit-for-duty RC service members
even though the members had medically-related, deployment limiting conditions.
Meeting these statutory and DoDI requirements made it challenging for RC units to
maintain required IMR rates.


Recommendations, Management Comments, and
Our Response
Recommendation 2
We recommend that the Under Secretary of Defense for Personnel and Readiness
develop and implement a plan that ensures Reserve Components’ service personnel
authorizations to retain service members in accordance with 10 U.S.C. § 1214a
while meeting unit deployment requirements.

Under Secretary of Defense for Personnel and Readiness
The Under Secretary of Defense for Personnel and Readiness ((USD(P&R))
concurred without comment to Recommendation 2.

Our Response
Comments from USD(P&R) were partially responsive. While concurring with the
recommendation, the response did not describe or address the actions planned
to implement the recommendation. In response to the final report, therefore, we
request that USD(P&R) describe the actions planned and an expected timeline to
meet the intent of this recommendation.




                                                                                  DODIG-2015-002 │ 25
                                                                                                                               Observation 3




Observation 3
Follow-up and Evaluation of Army Temporary
Medical Profiles
Army Reserve Component soldiers (not on active duty), who had received
temporary medical profiles, had limited or no access to DoD-provided healthcare to
be medically evaluated in accordance with Army Regulation (AR) 40-501, “Medical
Services, Standards of Medical Fitness,” 2007 with rapid action revision 2011.19

This occurred because the issuance of a temporary medical profile, by itself, did
not entitle RC soldiers to be medically evaluated in accordance with AR 40-501.

As a result, these RC soldiers were at risk of not having their temporary medical
profiles managed in accordance with AR 40-501.

	19	
       Refer to Appendix F for an explanation of the RSMSO.




Applicable Criteria
Section 1074, Title 10, United States Code (10 U.S.C. § 1074 [2011]), does not
authorize DoD-provided medical or dental care to members of the RC who are not
on active duty.

However, AR 40-501 establishes follow-up requirements for temporary medical
profiles issued to soldiers. The regulation requires that, RC soldiers (not on active
duty), who are issued temporary medical profiles, will be medically evaluated at
least every 3 months.

AR 40-501 designates that the following organizations may issue temporary
medical profiles for RC soldiers:

          •	 Army Regional Support Command Surgeons,
          •	 Army Reserve Command Surgeon,
          •	 Army Human Resource Command Surgeon or designees
          •	 Army Division Staff Surgeons,
          •	 AC Medical Treatment Facility Profiling Officers, 20




	20	
       Refer to Appendix I for further information about the Reserve Health Readiness Program which is an Army RC contracted
       profiling agency.




                                                                                                                          DODIG-2015-002 │ 27
Observation 3



                           •	 Army Reserve and Army National Guard Contracted Agency
                              Profiling Officers,
                           •	 Army Reserve Operational and Functional Command Surgeons and
                              Division Surgeons (that function as Command Surgeons),
                           •	 National Guard Bureau Chief Surgeon,
                           •	 Army National Guard Division Surgeons, and
                           •	 State National Guard Providers (Army National Guard).

                 Discussion
                 AR 40-501 requires that all soldiers who receive medical or surgical care,
                 regardless of service status, are to be managed with temporary medical profiles.
                 Temporary medical profiles are given to soldiers who have a temporary medical
                 condition in which correction or treatment of the condition is medically advisable,
                 and for which the correction will most likely result in better health. Temporary
                 medical profiles are normally issued for medical conditions that can be corrected
                 within a year.

                 AR 40-501 also requires that all soldiers who received temporary medical profiles,
                 regardless of service status, must be medically evaluated at least once every three
                 months until the requirement for the temporary medical profile expires.

                 The Defense Health Agency (DHA) indicated that the issuance of a temporary
                 medical profile, by itself, did not entitle RC soldiers to DoD-provided healthcare. 21
                 Consequently, these RC soldiers (not on active duty) who had been issued
                 temporary medical profiles were at risk of not having DoD-provided healthcare
                 available in order to receive required follow-up in accordance with AR 40-501.

                 Conclusion
                 AR 40-501 requires all Army RC members issued temporary medical profiles to
                 be medically evaluated at least once every three months until the requirement
                 for the profile is no longer required. However, DHA indicated that the issuance of
                 a temporary medical profile, by itself, did not entitle RC members to healthcare
                 at DoD expense. Therefore, controlled access to DoD-provided healthcare and
                 subsequent medical evaluations placed some RC soldiers at risk of not having their
                 temporary medical profiles managed in accordance with AR 40-501.




                 	21	
                        Refer to Appendix E for a listing of RC members’ DoD-provided healthcare entitlements.




28 │ DODIG-2015-002
                                                                                       Observation 3



Recommendations, Management Comments, and
Our Response
Redirected Recommendation
Recommendation 3 was originally intended for the Assistant Secretary of Defense
for Health Affairs ((ASD(HA)) for response. The Under Secretary of Defense for
Personnel and Readiness ((USD(P&R)) responded on behalf of ASD(HA); therefore,
DoD IG redirected the recommendation to USD(P&R).

Recommendation 3
We recommend that the Under Secretary of Defense for Personnel and Readiness
implement a plan so that Army Reserve Component service members receive
DoD‑provided medical evaluations of temporary medical profiles in accordance
with Army Regulation 40-501.

Under Secretary of Defense for Personnel and Readiness Comments
USD(P&R), responding for ASD(HA), concurred with comment to Recommendation 3.

USD(P&R) commented that a medical evaluation is not the same as medical
treatment and stated that the eligibility criteria for medical treatment at DoD
expense are specifically established by Congress in law. They further stated that
Conclusion 3 suggested an entitlement to medical treatment at DoD expense when
a condition was not incurred in the line of duty and the RC soldier was not entitled
to medical care by law.

USD(P&R), for ASD(HA), suggested that the conclusion to Observation 3 in the draft
report be revised to:
           “Defense Health Agency (DHA) indicated that the issuance of a
           temporary medical profile, by itself, did not entitle RC members
           to healthcare at DoD expense. AR 40-501 requires all Army RC
           members issued temporary medical profiles to be medically
           evaluated at least once every three months until the requirement
           for the profile was no longer required (paragraph 7-4, page 74). It
           continues that Army RC members are responsible for providing
           the unit commander all medical documentation, including civilian
           health records that document a change which may impact their
           readiness status (paragraph 9-3, page 104). With the proper
           information, the Army Profiling Officer can proceed to complete the
           required medical evaluation, even if the treatment was rendered by
           a civilian provider at RC member expense.”




                                                                                   DODIG-2015-002 │ 29
Observation 3



                 Our Response
                 Comments from USD(P&R), responding on behalf of ASD(HA), were partially
                 responsive. While concurring with the recommendation, the management
                 comments did not address the actions required to meet the intent stated in
                 the recommendation.

                 DoD IG agrees with USD(P&R)’s comment that medical evaluations are not the same
                 as medical treatment. Recommendation 3 is recommending USD(P&R) develop
                 and implement a plan that ensures RC soldiers, who are issued a DoD temporary
                 medical profile, receive medical evaluations of those temporary medical profiles in
                 accordance with Army Regulation 40-501. Recommendation 3 does not recommend
                 expanding eligibility criteria for medical treatment to remedy conditions causing
                 issuances of DoD temporary medical profiles.

                 We did revise the conclusion paragraph of Observation 3 based on USD(P&R)’s
                 management comments.

                 In response to the final report, we request that USD(P&R), in coordination with
                 ASD(HA), describe the actions planned to meet the intent of this recommendation.




30 │ DODIG-2015-002
                                                                                        Observation 4




Observation 4
Medical History and Line of Duty
Administrative Requirements
RC service members returned from deployments or temporary duty with missing
or incomplete medical histories and LOD documentation.

This occurred because responsible Commanders and medical authorities did not
consistently manage the medical histories and LOD documentation for deployed or
temporary duty RC service members.

As a result, deactivated RC service members had to reconstruct incomplete or
missing medical histories and line of duty documentation in order to receive
DoD‑provided medical care for wounds, illnesses, and injuries incurred or
aggravated while deployed or assigned temporary duty.




Applicable Criteria
DoDD 1241.01, “Reserve Component Medical Care and Incapacitation Pay for Line
of Duty Conditions,” 2007, defines LOD as a finding after all available information
has been reviewed that determines an injury, illness, or disease was incurred or
aggravated as a result of military duty not due to gross negligence or misconduct
of the member.

DoDI 1241.2, “Reserve Component Incapacitation System Management,” 2001,
prohibits the delay of medical treatment for LOD wounds, illnesses, and injuries
due to administrative requirements. It also directs that Service Secretaries
establish procedures to ensure that medical treatment for wounds, illnesses, and
injuries incurred or aggravated in the line of duty will not be delayed because of
administrative requirements.

The Defense Health Agency issued a guide titled Reserve and Service Member
Support Office (RSMSO)22 Process Guide, 2013, that states that all RC service
members’ requests for medical care include a Service approved LOD determination.

Discussion
It is DoD policy to provide medical treatment to RC service members for an injury,
illness, or injury incurred or aggravated in the line of duty. Once demobilized, RC
service members who had become wounded, ill, or injured while on active duty

	22	
       Refer to Appendix F for an explanation of the RSMSO.




                                                                                      DODIG-2015-002 │ 31
Observation 4



                 required an LOD determination from their Service branch. LOD documentation
                 was used to establish, manage, and authorize healthcare for eligible RC service
                 members and necessary for RC members to receive treatment for any medical
                 concerns incurred or aggravated in the line of duty. Refer to Appendix F for further
                 information about line of duty care.

                 RC Surgeons, Headquarters-level medical staff members, and multiple RC units
                 all reported occurrences of RC service members suffering wounds, illnesses, and
                 injuries on active duty that were not documented or incorrectly documented. They
                 further explained that these RC service members were required to reconstruct
                 their own medical histories to prove their medical conditions were incurred or
                 aggravated in the line of duty. This was a complex and time-consuming task. As a
                 result, the administrative requirements to reconstruct medical histories and LOD
                 paperwork put wounded, ill, and injured RC service members at risk of delayed or
                 denied authorization for LOD medical treatment. Refer to Appendix E for further
                 information about RC access to DoD-provided healthcare.

                 The Army’s Human Resources Command staff members we contacted stated that
                 a significant problem with RC service members’ LODs was that requisite medical
                 documentation did not always follow the member from his or her area-of-operation
                 or deployment location. Conversely, the staff reported that there were generally no
                 problems with access to LOD medical treatment when the proper documentation
                 was available.

                 The staff at a Marine Corps Reserve Support Unit (RSU) estimated that
                 50 percent of re-deploying RC Marines returned without proper medical or
                 LOD documentation.

                 DoD has an electronic and IT-based medical records data base (called In-Theater
                 AHLTA) which records both AC and RC deployed service members’ medical
                 histories. However, RC units reported challenges retrieving RC service members’
                 medical histories when their members returned to their unit.

                 The lack of overarching DoD guidance specifically assigning responsibilities to
                 administratively manage deployed RC service members’ medical history and LOD
                 paperwork contributed to incomplete or missing documentation.

                 Since RC service members were at risk of becoming wounded, ill, and injured
                 world-wide, RC service members, who lacked medical and LOD documentation
                 were subject to not receiving timely or any DoD-provided medical care.




32 │ DODIG-2015-002
                                                                                      Observation 4



Conclusion
LOD medical treatment was vital to wounded, ill, and injured RC service members.
However, without a LOD medical determination, wounded, ill, or injured RC service
members’ access to DoD-provided healthcare was limited, despite the fact that
the wounds, illnesses, and injuries were incurred or aggravated while in the line
of duty.

Frequently, RC service members returned from deployment with missing or
incomplete medical histories and LOD documentation. The difficult administrative
requirements to reconstruct medical histories or LOD paperwork put wounded, ill,
and injured RC service members at risk of delayed or denied authorization for LOD
medical treatment.


Recommendations, Management Comments, and
Our Response
Redirected Recommendation
Recommendation 4 was originally intended for the Assistant Secretary of
Defense for Health Affairs ((ASD(HA)) for response. The Under Secretary of
Defense for Personnel and Readiness ((USD(P&R)) requested that we redirect
the recommendation to their office, which we have done.

Recommendation 4
We recommend that the Under Secretary of Defense for Personnel and
Readiness establish policy that assigns responsibilities to Commanders and
medical authorities to manage medical histories and line of duty documentation
for deployed or temporary duty RC service members in a standardized manner
across all Services, so that both are complete and available to their units in a
timely manner.

Under Secretary of Defense for Personnel and Readiness
USD(P&R) concurred with comment to Recommendation 4, stating that ASD(HA)
will work with the Assistant Secretary for Reserve Affairs to update DoD policies
cited in DoDD 1241.01 and DoDI 1241.2. USD(P&R) also commented that ASD(HA)
is the policy proponent and oversight authority for the medical records and is
responsible for establishing policy and procedure for managing the medical
records and history of service members; and that the Director, Defense Health
Agency (DHA) would establish proper management controls to assure Defense
Health Program Appropriation (DHPA) funds are properly used for Line of Duty
entitlements under law.




                                                                                    DODIG-2015-002 │ 33
Observation 4



                 Our Response
                 Comments from USD(P&R) were responsive. We will follow up in six months on
                 the status of updates to DoDD 1241.01 and DoDI 1241.2. At that time we will also
                 seek updated information on what management controls the Director, DHA has
                 established to assure DHPA funds are properly used for Line of Duty entitlements
                 under law.




34 │ DODIG-2015-002
                                                                                     Observation 5




Observation 5
Proof of Line of Duty Entitlement Documents for
Military Treatment Facility Care
Wounded, ill, and injured Reserve Component service members had difficulty
accessing authorized medical services at Military Treatment Facilities (MTF)
because different forms were used by each military Service to prove line of duty
(LOD) medical care entitlements.

This was caused by the lack of standardized DoD forms for use by RC service
members to establish proof of eligibility for LOD medical care at MTFs.

As a result of the differing LOD documentation requirements among the Services,
RC service members risked being delayed or denied LOD authorized medical
treatment at MTFs.




Applicable Criteria
The Services used differing forms for proof of LOD medical care entitlements.

     •	 Army: According to the Reserve Affairs Office of the Army’s Surgeon
        General, the Army did not have a single overarching regulation regarding
        LOD medical entitlement requirements. Instead, the requirements were
        derived from a number of individual sources. The Army requires a
        DA 2173, Statement of Medical Examination and Duty Status. Additional
        Army requirements include a DD 261, Report of Investigation Line of Duty
        and Misconduct Status and/or an appropriate approval memo.
     •	 Navy: SECNAVINST 1770.3D, “Management and Disposition of
        Incapacitation and Incapacitation Benefits for Members of Navy and
        Marine Corps Reserve Components,” March 17, 2006, designates that
        Navy personnel require a LOD approval letter from Navy Personnel
        Command (PERS-95).
     •	 Marine Corps: Marine Corps Orders (MCO) 1770.2B, “Administration
        Regarding Injuries of Reserve Marines Performing Active Duty and
        Inactive Duty,” April 2, 2014, and MCO 1001R.1K, “Marine Corps Reserve
        Administrative Management Manual,” 2009, instruct that LOD requests
        will be submitted, updated, and tracked on-line through the automated
        Marine Corps Medical Entitlements Data System (MCMEDS).




                                                                                   DODIG-2015-002 │ 35
Observation 5



                      •	 Air Force Instruction 36-2910, “Line of Duty,” 2002 incorporating change
                         through 2010, Chapter 3, directs that members use an AF 348 Line of Duty
                         Determination. Additional requirements may also include a DD 261.
                      •	 DoDI 1241.2 establishes that RC service members who incur a wound,
                         illness, or injury in the line of duty will be provided with medical
                         treatment. It also establishes that administrative requirements will not
                         delay access to this medical treatment.

                 Discussion
                 It is DoD policy to provide medical treatment to RC service members for wounds,
                 illnesses, and injuries incurred or aggravated in the line of duty. Once demobilized,
                 RC service members who had become wounded, ill, or injured while on active duty
                 required an LOD determination from their Service branch. LOD documentation
                 was used to establish, manage, and authorize healthcare for eligible RC service
                 members and was important in order to receive treatment for any medical issues
                 incurred or aggravated in the line of duty. LOD entitlements also ensure RC service
                 members do not incur out-of-pocket medical expenses for wounds, illnesses, and
                 injuries incurred in the line of duty. Refer to Appendix F for further information
                 about line of duty care.

                 Generally, RC service members received medical treatment at the nearest available
                 MTF, regardless of their Service branch or the Service branch of the MTF. RC
                 service members who sought LOD medical treatment at MTFs not affiliated
                 with their own Service branch risked the MTF staff not fully understanding and
                 accepting each Service’s different forms used as proof for LOD medical treatment.

                 Medical staff members we interviewed expressed concern about RC service
                 members’ difficulty receiving authorized LOD medical treatment at MTFs.
                 These medical staff members reported that although RC service members had
                 the required forms issued in accordance with their own Service requirements,
                 members still experienced administrative difficulty receiving medical treatment
                 because each Service had different requirements to prove entitlement for LOD
                 medical treatment. The use of different forms for proof of LOD entitlements by the
                 Services resulted in varying requirements with ensuing administrative difficulties
                 and delays in authorized medical treatment.


                 Conclusion
                 It is DoD policy to provide medical treatment to RC service members for wounds,
                 illnesses, and injuries incurred or aggravated in the line of duty. RC service
                 members, who became wounded, ill, and injured while on active duty, required
                 service specific LOD documentation to receive treatment for any medical concerns
                 incurred or aggravated in the line of duty.



36 │ DODIG-2015-002
                                                                                                                          Observation 5



Wounded, ill, and injured RC service members experienced difficulty receiving
treatment at MTFs. The difficulty stemmed from differing administrative
requirements for proof of LOD entitlements used by each Service. The differing
administrative requirements (to prove LOD entitlements) put wounded, ill, and
injured RC service members at risk of delayed or denied authorization for LOD
medical treatment at MTFs, which is not in compliance with DoD Policy.


Recommendations, Management Comments, and
Our Response
Redirected Recommendation
Recommendation 5 was originally intended for the Assistant Secretary of
Defense for Health Affairs (ASD(HA)) for response. The Under Secretary of
Defense for Personnel and Readiness (USD(P&R) requested that we redirect the
recommendation to their office, which we have done.

Recommendation 5
We recommend that the Under Secretary of Defense for Personnel and Readiness
establish standardized DoD form(s) and procedures that provide access for
all Reserve Component service members to line of duty care at all military
treatment facilities.

Under Secretary of Defense for Personnel and Readiness
USD(P&R) concurred with comment to Recommendation 5, stating that Assistant
Secretary for Reserve Affairs will establish a DD Form for entitlement to LOD
healthcare in the reissuance of DoDD 1241.01. USD(P&R) also stated that there
is an existing information requirement, Report Control DD-RA(AR)2421, to
establish the requirement for the Defense Enrollment Entitlement Reporting
System (DEERS)23 to record entitlements to LOD healthcare.

Our Response
Comments from USD(P&R) were responsive. We will follow up in six months on the
status of the reissuance of DoDD 1241.01. At that time we will also request status
on progress in recording LOD healthcare entitlements into DEERS, as suggested
by management.




	23	
       The Defense Enrollment Entitlement Reporting System, also referred to as DEERS, is the Department of Defense’s
       medical entitlement repository.




                                                                                                                        DODIG-2015-002 │ 37
                                                                                         Appendixes




Appendix A
Scope and Methodology
The DoD IG conducted this assessment from September 2013 to August 2014 in
accordance with the Council of Inspectors General on Integrity and Efficiency,
“Quality Standards for Inspections and Evaluations,” January 2012. We planned
and performed the assessment to obtain sufficient and appropriate evidence that
provided a reasonable basis for all observations and conclusions, based on the
assessment objectives.

The overarching objective of the “Assessment of DoD Wounded Warrior Matters”
(Project No. D2010-D00SPO-0209.000) was to assess DoD programs for the care,
management, and transition of recovering service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom. This
follow-on assessment specifically addresses the theme of the DoD-provided health
and medical care benefits and entitlements available to Reserve Component
members who become injured in the line of duty. This assessment also includes the
DoD-provided health and medical care benefits and entitlements available to RC
members to maintain required medical readiness rates.

This assessment based the overall scope and methodology on the RC Status Cycle.
Status of the RC service member is cyclical in nature and can generally be broken
down into four phases.

     •	 Not-Activated: RC service members’ primary responsibilities are training
        and preparing for activation.
     •	 Activated/Deployment: RC service members are considered to be on
        active duty.
     •	 Post-Deployment: RC service members are still considered to be on active
        duty, however their primary mission is complete and the member is
        generally on reconstitution time and accrued leave.
     •	 Deactivated: RC service members are no longer considered to be on
        active duty.

The DoD IG stated in its April 16, 2010, project announcement memorandum
that additional assessments on Wounded Warrior matters may be conducted as
pertinent issues are identified. Once the subject of wounded, ill, and injured RC
service members receiving care alternatively from the Army and Marine Corps
Wounded Warrior programs was identified, we determined that further description
of the methodology outside of what was documented in the original Wounded
Warrior project design plan was required.




                                                                                    DODIG-2015-002 │ 39
Appendixes



                 The objectives of this follow-on assessment were to specifically determine whether:

                      •	 DoD-provided healthcare supports Guard and Reserve pre-deployment
                         medical readiness rates so that the Guard and Reserve maintain
                         operational capabilities and provide strategic depth to U.S. forces to meet
                         the U.S. defense requirements; and
                      •	 DoD-provided healthcare supports efficient and effective, post-deployment
                         care for Guard and Reserve who become wounded, ill and injured.

                 We reviewed documents such as Federal laws and regulations, the National Defense
                 Authorization Act, Chairman of the Joint Chiefs of Staff Instructions, DoD directives
                 and instructions, relevant Service directives, instructions, and orders, and previous
                 reports from GAO, DoD IG, and others.

                 We also contacted organizations through site visits, teleconferences, and requests
                 for information in order to ensure that we had the most up-to-date information
                 available. We contacted or visited the following organizations:

                      •	 Office of Secretary of Defense for Reserve Affairs
                      •	 Deputy Assistant of Defense for Force Health Protection and Readiness
                      •	 Office of Strategy Management, Defense Health Agency
                      •	 Reserve Members Support, Defense Health Agency
                      •	 DoD IMR Working Group, Defense Health Agency
                      •	 RHRP Metrics, Defense Health Agency
                      •	 TRICARE, Defense Health Agency
                      •	 TRICARE Regional Office – North
                      •	 TRICARE Regional Office – South
                      •	 TRICARE Regional Office – West
                      •	 Reserve and Service Member Support Office
                      •	 Joint Guard Surgeon’s Office
                      •	 National Guard Surgeon’s Office
                      •	 Army Reserve Surgeon’s Office
                      •	 Navy Reserve Surgeon’s Office
                      •	 Marine Reserve Surgeon’s Office
                      •	 Air Force Reserve Surgeon’s Office
                      •	 Air Guard Surgeon’s Office
                      •	 Oregon National Guard & State Surgeon’s Office
                      •	 Assistant Secretary of the Army, Manpower & Reserve Affairs, Pentagon




40 │ DODIG-2015-002
                                                                                   Appendixes



•	 Headquarters Department of the Army, Deputy Chief of Staff G-1
•	 Department of Army Military Operations – Operations
   Directorate Mobilization
•	 U.S. Army Forces Command
•	 U.S. Army Medical Command
•	 U.S. Army Dental Command
•	 Warrior Transition Command
•	 Community Based Warrior Transition Unit – Concord, Massachusetts
•	 Community Based Warrior Transition Unit – Sacramento, California
•	 Community Based Warrior Transition Unit – Salt Lake City, Utah
•	 Community Based Warrior Transition Unit – Orlando, Florida
•	 U.S. Army Installation Management Command
•	 U.S. Army Human Resources Command
•	 Army Reserve Affairs
•	 Reserve Component Soldier Medical Support Center
•	 Army Reserve Medical Management Center
•	 Army Reserve Recovery Care Coordinator
•	 Soldier Readiness Processing Center – Joint Base McGuire Dix, New Jersey
•	 Soldier Readiness Processing Center – Fort Hood, Texas
•	 Soldier Readiness Processing Center – Camp Shelby, Mississippi
•	 Soldier Readiness Processing Center – Fort Bliss, Texas
•	 13th Battalion Army Reserve Careers Division, Phoenix, Arizona
•	 189th General Support Aviation Battalion, Fort Harrison, Montana
•	 191st Combat Sustainment Support Battalion, Salt Lake City, Utah
•	 387th Military Police Battalion, Phoenix, Arizona
•	 392nd Medical Logistics Company, Wichita, Kansas
•	 399th Combat Support Hospital, Fort Devens, Massachusetts
•	 469 Ambulance Company, Wichita, Kansas
•	 652nd Regional Support Group – Helena, Montana
•	 804th Medical Brigade – Fort Devens, Massachusetts
•	 Navy Operational Support Center – North Island, California
•	 Navy Operational Support Center – East, Norfolk, Virginia
•	 Navy Region Southwest Reserve Component Medical Hold – North
   Island, California



                                                                              DODIG-2015-002 │ 41
Appendixes



                      •	 Navy Region Mid-Atlantic Reserve Component Medical Hold-East –
                         Norfolk, Virginia
                      •	 Navy Mobilization Processing Site – San Diego, California
                      •	 Navy Mobilization Processing Site – Camp Lejeune, North Carolina
                      •	 Navy Mobilization Processing Site – Norfolk, Virginia
                      •	 Marine Forces Reserve
                      •	 Marine Corps Individual Reserve Support Activity
                      •	 Wounded Warrior Regiment
                      •	 Reserve Medical Entitlements Division – Wounded Warrior Regiment
                      •	 Recovery Care Coordinators – Wounded Warrior Regiment
                      •	 Marine Reserve Support Unit West – Camp Pendleton, California
                      •	 Deployment Processing Command/Reserve Support Unit East,
                         Camp Lejeune, North Carolina
                      •	 1st Marine Expeditionary Force, Camp Pendleton, California
                      •	 2nd Civil Affairs Group, United States Marine Corps Training Center,
                         Joint Base Anacostia-Bolling, Washington, D.C.
                      •	 4th Medical Battalion, Miramar, California
                      •	 Marine Aircraft Group 49 – Det C, New Orleans, Louisiana
                      •	 HQ USAF A1SZ, Warrior Survivor and Care Policy, Randolph Air Force
                         Base, Texas
                      •	 HQ AFPC-DPFW, Randolph Air Force Base, Texas
                      •	 Air Force Reserve Command, Robins AFB, Georgia
                      •	 National Guard Bureau A3XW, Joint-Base Andrews, Maryland
                      •	 Warrior and Survivor Care, Randolph Air Force Base, Texas
                      •	 Air National Guard Combat Readiness Training Center, Alpena, Michigan
                      •	 113th Air Support Operations Squadron, Terre Haute, Indiana
                      •	 125th Fighter Wing, Jacksonville, Florida
                      •	 127th Medical Group, Selfridge, Michigan
                      •	 174th Attack Wing, Syracuse, New York
                      •	 181st Intelligence Wing, Terre Haute, Indiana
                      •	 185th Air Refueling Wing, Sioux City, Iowa
                      •	 349 Air Mobility Wing, Travis Air Force Base, California
                      •	 434 Air Refueling Wing, Grissom Air Reserve Base, Indiana
                      •	 927th Air Refueling Wing, MacDill Air Force Base, Florida




42 │ DODIG-2015-002
                                                                                            Appendixes



The assessment of DoD-provided healthcare for members of the reserve
components chronology was:

     •	 October through December 2013 	         Research
     •	 January through March 2014	             Fieldwork
     •	 April through July 2014	                Analysis and report writing
     •	 August 2014	                            Draft assessment report issued
     •	 18 September, 2014 	                    Management comments received
        	                                       and evaluated
     •	 8 October, 2014	                        Report Published

Use of Computer-Processed Data
We did not use self-generated computer-processed data to perform this assessment.
However, our assessment team relied on reports generated by the following:

     •	 Defense Health Agency, Combined IRC IMR Rates (Figure 2, page 5)
     •	 Defense Health Agency, TRICARE Historical Reserve Select
        Enrollment Rates
     •	 Office of the Assistance Secretary of Defense, Reserve Affairs, Composition
        of the Reserve Component (Figure 7, page 48)

We did not test the validity or verify the results of any computer processed data
used by these organizations. We determined that the reliability of the data would
not materially affect our ability to conduct the assessment, formulate our findings,
or make our recommendations.




                                                                                       DODIG-2015-002 │ 43
Appendixes




                 Appendix B
                 Summary of Prior Coverage
                 Several reports were issued during the past 5 years about DoD and Department
                 of Veterans Affairs healthcare services and management, disability programs,
                 and benefits. We found that GAO, DoD IG, and the RAND Corporation have
                 issued at least 17 reports specific to DoD-provided healthcare to members
                 of the Reserve Components.

                      •	 Unrestricted GAO reports can be accessed over the Internet at
                         http://www.gao.gov.
                      •	 Unrestricted DOD IG reports can be accessed at
                         http://www.dodig.mil/PUBS/index.html.
                      •	 DoD Recovering Warrior Task Force reports can be assessed at
                         http://dtf.defense.gov/rwtf/.


                 Government Accountability Office
                 GAO-13-364, “Defense Healthcare: TRICARE Multiyear Surveys Indicate Problems
                 with Access to Care for Non-enrolled Beneficiaries,” April 2013

                 GAO-13-5, “Recovering Servicemembers and Veterans: Sustained Leadership
                 Attention and Systematic Oversight Needed to Resolve Persistent Problems
                 Affecting Care and Benefits,” November 2012

                 GAO-12-911, “Defense Health Care: Additional Analysis of Costs and Benefits of
                 Potential Governance Structure is Needed,” September 2012

                 GAO-12-992, “VA and DoD Healthcare: Department-Level Actions Needed to
                 Assess Collaboration Performance, Address Barriers, and Identify Opportunities,”
                 September 2012

                 GAO-11-551, “Defense Health Care: DoD Lacks Assurance that Selected Reserve
                 Members Are Informed About TRICARE Reserve Select,” June 2011

                 GAO-11-500, “Defense Health Care: Access to Civilian Providers under TRICARE
                 Standard and Extra,” June 2011

                 GAO-10-402, “Defense Health Care: 2008 Access to Care Surveys Indicate Some
                 Problems, but Beneficiary Satisfaction is Similar to Other Health Plans,” March 2010




44 │ DODIG-2015-002
                                                                                   Appendixes



Department of Defense Office of Inspector General
DODIG-2014-040, “Assessment of DoD Wounded Warrior Matters – Managing Risks
of Multiple Medications,” February 21, 2014

DODIG-2013-113, “Assessment of DoD Wounded Warrior Matters – Fort Riley,”
August 6, 2013

DODIG-2013-087, “Assessment of DoD Wounded Warrior Matters – Joint Base
Lewis‑McChord,” May 31, 2013

DODIG-2012-120, “Assessment of DoD Wounded Warrior Matters – Wounded
Warrior Battalion – West Headquarters and Southern California Units,”
August 22, 2012

DODIG-2012-067, “Assessment of DoD Wounded Warrior Matters – Camp Lejeune,”
March 30, 2012

SPO-2011-010, “Assessment of DOD Wounded Warrior Matters – Fort Drum,”
September 30, 2011

SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort Sam Houston,”
March 17, 2011

Other
Department of Defense Recovering Warrior Task Force, “2012-2103 Annual Report,”
September 3, 2013

RAND Research Brief RB-9670-OSD, “Improving Medical and Dental Readiness in
the Reserve Components,” 2012

RAND, “Medical Readiness of the Reserve Component,” 2012




                                                                              DODIG-2015-002 │ 45
Appendixes




                 Appendix C
                 Legislative History and Related Activity
                 Office of the Under Secretary of Defense Personnel Readiness Report to Congress
                 on Fit, But Unsuitable Administrative Separations. Refer to Appendix J for further
                 information about Fit-for-Duty and Deployment Limiting Conditions.




46 │ DODIG-2015-002
                                                                                                                          Appendixes




Appendix D
Reserve Components
The National Guard and Reserves of the United States Armed Forces, collectively
referred to as the RC, are military organizations whose members generally perform
a minimum of 38 days of military duty per year and who augment the active duty
(or full-time) military specific to the Services’ regulations and instructions. 24

10 U.S.C. § 10102, (2011), states the purpose of each RC is to:

          •	 “provide trained units and qualified persons available for active duty in
             the armed forces in time of war or national emergency and at such other
             times as the national security may require,” and
          •	 “fill the needs of the armed forces whenever more units and persons are
             needed than are in the active duty components.”

The seven RCs of the U.S. military are:

          •	 Army Reserve (USAR),
          •	 Navy Reserve (USNR),
          •	 Marine Corps Reserve (MARFORRES),
          •	 Air Force Reserve Command (AFR),
          •	 Coast Guard Reserve, 25
          •	 Army National Guard of the United States (ARNG), and
          •	 Air National Guard of the United States (ANG). 26




	24	
       The National Guard is a joint DoD activity composed of reserve components of the United States Army and
       the United States Air Force: the Army National Guard of the United States and the Air National Guard of the
       United States respectively.
	25	
       For purposes of this report, the Coast Guard Reserve is not included.
	26	
       The ARNG and ANG are the National Guard of the United States.




                                                                                                                     DODIG-2015-002 │ 47
Appendixes



                 Figure 7 below represents the composition of the RC:

                 Figure 7. Composition of the Ready Reserve by Component (As of April, 2014)




                 Source: Office of the Assistance Secretary of Defense, Reserve Affairs


                 The United States Army Reserve
                 The USAR is the reserve component of the U.S. Army. The Army Reserve includes
                 all Reserves of the Army who are not members of the Army National Guard of the
                 United States.

                 The United States Navy Reserves
                 The USNR is the reserve component of the Navy. It is organized, administered,
                 trained, and supplied under the direction of the Chief of Naval Operations.

                 The Marine Corps Reserve
                 The MARFORRES is the reserve component of the Marine Corps. It is organized,
                 administered, trained, and supplied under the direction of the Commandant of the
                 Marine Corps.

                 The United States Air Force Reserve
                 The AFR is the reserve component of the U.S. Air Force which is designed to
                 provide a reserve force for active duty.

                 The Army National Guard of the United States
                 The ARNG consist of units stationed in each U.S. state, the District of Columbia,
                 and territories. It is the reserve component of the Army and consists of federally
                 recognized units and organizations of the Army National Guard and members of
                 the Army National Guard who are also Reserves of the Army.




48 │ DODIG-2015-002
                                                                                           Appendixes



Air National Guard of the United States
The ANG is the Air Force component of each U.S. state, the District of Columbia,
Puerto Rico, and territories. The ANG consists of federally recognized units and
organizations of the ANG and members of the ANG who are also Reserves of the
Air Force.


Categories of Reservists
The Ready Reserve
The Ready Reserve is the primary manpower pool of the reserve components.
The Ready Reserve consists of three reserve component subcategories: Selected
Reserves, Individual Ready Reserves, and Inactive National Guard.

The Selected Reserve
The Selected Reserve includes those units and individuals within the Ready
Reserve designated as so essential to initial wartime missions, that they have
priority over all other Reserves.

The Individual Ready Reserve
The IRR are tasked with providing a manpower pool composed principally
of individuals having had training and having previously served in an Active
Component or in the Selected Reserve.

Inactive National Guard
The Inactive National Guard (ING) are National Guard personnel in an inactive
status attached to a specific National Guard unit, who are required to muster once
a year with their assigned unit but do not participate in training activities.

The Standby Reserve
The Standby Reserve consists of personnel who have been designated key civilian
employees, or who have a temporary hardship or disability. They are not required
to perform training.

The Retired Reserve
The Retired Reserve consists of all reserve officers and enlisted personnel who
receive retired pay on the basis of Active Duty and/or Reserve Service and reserve
officers and enlisted personnel who are otherwise eligible for retired pay but have
not reached age 60.




                                                                                      DODIG-2015-002 │ 49
Appendixes



                 Federal Call-Up Authority
                 Reservists
                 Section 12301(a), title 10, United States Code (10 U.S.C. § 12301(a) [2013])provides
                 that, in time of war or national emergency declared by the Congress, the entire
                 membership of all reserve components or any lesser number can be called to active
                 duty for the duration of the war or national emergency plus 6 months.

                 Section 12301(b), title 10, United States Code (10 U.S.C. § 12301(b) [2013])provides
                 that at any time a Service secretary can order any reservist to active duty for up to
                 15 days each year.

                 Ready Reserves
                 Section 12302, title 10, United States Code (10 U.S.C. § 12301 [2013]) provides
                 that, in time of national emergency declared by the President, up to one million
                 members of the Ready Reserve can be called to active duty for not more than
                 24 consecutive months.

                 Selected Reserves
                 Section 12304, title 10, United States Code (10 U.S.C. § 12304 [2012])provides that,
                 when the President determines that it is necessary to augment the active forces for
                 any operational mission, up to 200,000 members of the Selected Reserve can be
                 called to active duty for not more than 365 days.




50 │ DODIG-2015-002
                                                                                          Appendixes




Appendix E
Reserve Component Access to Care
Not-Activated
Not-DoD-Provided Healthcare
The RC service member may have private or public healthcare insurance available
or be uninsured. Qualified members may also be eligible for care through
Veterans Administration.

TRICARE Reserve Select
TRICARE Reserve Select is a premium-based healthcare insurance plan available to
qualified Selected Reserve members of the Ready Reserve and their beneficiaries.
Refer to Appendix F for further information about TRICARE.

TRICARE DENTAL Program
The TRICARE Dental Program is a premium-based dental care plan offered to
eligible service members by DoD through TRICARE (Defense Health Agency).
Refer to Appendix F for further information about TRICARE.

Reserve Healthcare Readiness Program
The RHRP is a DoD, Health Affairs program designed to supplement the RC by
providing PHA, Post-Deployment Health Reassessment (PDHRA), and other IMR
services that satisfy key deployment requirements. RHRP provides medical and
dental services to all RCs. Refer to Appendix I for further information about
the RHRP.

TRICARE 180-Day Early Benefit
RC service members in receipt of valid activation orders are eligible for military
health benefits under the TRICARE Early Eligibility Program. TRICARE Early
Eligibility applies to RC service members up to 180 days prior to activation.
Refer to Appendix F for further information about TRICARE.

Line of Duty Care
RC service members are covered for wounds, illnesses, and injuries incurred
or aggravated in the line of duty. Refer to Appendix F for further information
about TRICARE.




                                                                                     DODIG-2015-002 │ 51
Appendixes



                 Activation/Deployment
                 Mobilization Processing Site
                 The Army, Navy, and Marine Corps mobilize and demobilize through specific
                 locations that provide additional medical care to facilitate the mobilization
                 and demobilization process. Refer to Appendix G for further information about
                 mobilization/demobilization and deployment and redeployment medical services.

                 TRICARE Prime & TRICARE Prime Remote
                 TRICARE Prime and TRICARE Prime Remote provide comprehensive health
                 coverage, including enhanced preventive care and vision benefits, without the cost
                 of a premium. Refer to Appendix F for further information about TRICARE.

                 TRICARE Through the End of Active Duty Status
                 While activated for a period of more than 30 consecutive days, RC service members
                 are covered as active duty service members. Upon reaching their final duty station
                 they can enroll in TRICARE Prime, TRICARE Prime Remote, TRICARE Prime
                 Overseas, or TRICARE Prime Overseas Remote. Refer to Appendix F for further
                 information about TRICARE.

                 DoD/In-theater Support
                 While in-theater the RC service member receives the same support as their Active
                 Component counterparts.

                 Post Deployment
                 TRICARE Prime & TRICARE Prime Remote
                 The RC service member is covered by TRICARE Prime or TRICARE Prime Remote
                 until all accrued leave and compensatory time expires and the RC service
                 member officially comes off orders. Refer to Appendix F for further information
                 about TRICARE.

                 Extension of Active Duty & Recall to Active Duty
                 RC service members can be recalled to active duty or have their current orders
                 extended to receive authorized medical care and treatment. Refer to Appendix K
                 for further information about extended active duty orders.




52 │ DODIG-2015-002
                                                                                       Appendixes



Deactivated
Transitional Assistance Management Program
Transitional Assistance Management Program (TAMP) provides 180 days of
premium-free transitional health care benefits after RC service members come
off eligible orders. Refer to Appendix F for further information about TRICARE.

Line of Duty Care
RC service members are covered for wounds, illnesses, and injuries incurred
or aggravated in the line of duty. Refer to Appendix F for further information
about TRICARE.




                                                                                  DODIG-2015-002 │ 53
Appendixes




                 Appendix F
                 TRICARE
                 TRICARE Reserve Select
                 TRICARE Reserve Select is a worldwide premium-based health insurance plan that
                 provides comprehensive health coverage. It covers most inpatient and outpatient
                 care that is medically necessary and considered proven. It is available to members
                 of the Selected Reserve of the Ready Reserve (and their beneficiaries) who meet the
                 following conditions:

                      •	 Service members not on active duty orders,
                      •	 service members not covered under the Transitional Assistance
                         Management Program, and
                      •	 service members not eligible for or enrolled in the Federal Employees
                         Health Benefits (FEHB) program or currently covered under FEHB.

                 TRICARE Dental Program
                 The TRICARE Dental Program is a worldwide premium-based dental care plan
                 offered to eligible service members by DoD through TRICARE. It is available to
                 service members who meet the following conditions:

                      •	 Service members not on active duty orders for more than 30 consecutive
                         days, and
                      •	 service members not covered under the TAMP.

                 The TRICARE Dental Program covers the following services:

                      •	 exams, cleanings, fluorides, sealants, and x-rays,
                      •	 fillings, including white fillings on back teeth,
                      •	 root canals,
                      •	 gum surgery,
                      •	 oral surgery and tooth extractions,
                      •	 crowns and dentures,
                      •	 orthodontics and braces,
                      •	 scaling and root planning (deep cleaning) for diabetics, and
                      •	 additional cleanings for pregnant women.




54 │ DODIG-2015-002
                                                                                             Appendixes



TRICARE Early Eligibility
TRICARE Early Eligibility applies to RC service members and eligible dependents up
to 180 days prior to activation. To qualify for the TRICARE Early Eligibility benefit,
the RC service member must be in receipt of valid activation orders. The TRICARE
Early Eligibility benefit provides the RC service member with the same medical and
dental benefits as members of the Active Component.

TRICARE Prime
TRICARE Prime is available to RC service members, who are called or ordered to
active duty for more than 30 consecutive days or within 180 days of activation
based on early activation orders.

Active Duty
TRICARE Prime provides comprehensive health coverage including enhanced
preventive care and vision benefits. Service members have an assigned primary
care manager (PCM) who provides most of the care through the Military or
network provider and refers service members to specialists for care PCMs cannot
provide. Service members and beneficiaries eligible for TRICARE Prime generally
pay no out-of-pocket expenses for medical treatment.

TRICARE Prime Remote
TRICARE Prime Remote offers the same benefits as TRICARE Prime to eligible
RC service members (and their beneficiaries), who generally live and work greater
than 50 miles from a military hospital or clinic. The difference is that the PCM is a
civilian provider in the TRICARE network.

Transitional Assistance Management Program
The TAMP provides 180 days of premium-free transition healthcare benefits after
active duty TRICARE benefits end. To qualify for TAMP, the RC service member
must have served on active duty for a period of more than thirty consecutive days
in support of a contingency operation. The member is not eligible for TAMP while
on terminal leave and eligibility must be documented and maintained in the DEERS.
During the TAMP benefit period, members are eligible to use TRICARE Prime,
TRICARE Standard and Extra, U.S. Family Health Plan, TRICARE Prime Overseas,
or TRICARE Standard Overseas.




                                                                                        DODIG-2015-002 │ 55
Appendixes



                 Line of Duty Care
                 RC service members may be covered by LOD care for wounds, illnesses, and injuries
                 determined to be incurred or aggravated while in a qualifying duty status or while
                 traveling to or from the place of duty. Qualifying status may include inactive duty
                 (drill), funeral honors duty, or active duty.

                 RC service members’ components issue LOD determinations that specifically
                 identify the qualifying medical or dental condition to be treated by or covered at
                 the expense of DoD. Since treatment and coverage are limited to the particular LOD
                 condition only, LOD determinations are not recorded in the DEERS.

                 If RC service members reside in the general area of an MTF (as indicated by the
                 member’s residential ZIP code in DEERS) that MTF will manage the LOD care.
                 Generally, this includes RC service members who reside within the catchment area
                 of an MTF. The member needs to make sure that his or her Service-issued LOD
                 determination is on file at the MTF

                 If the member does not reside on an MTF area, Reserve and Service Member
                 Support Office (RSMSO) will authorize care through the member’s unit
                 medical representative.

                 RC service members may be eligible to receive reimbursement for medications
                 in connection with their LOD determinations through the RSMSO.

                 Once the RC issues a LOD determination, it is the RC service member’s
                 responsibility to ensure the written LOD determination is submitted either
                 to a MTF or RSMSO.

                 Line of Duty Dental Care
                 RCs use LOD determinations for RC service members who incur or aggravate a
                 dental injury, illness, or disease while on active duty and are not otherwise eligible
                 of care under the Active Duty Dental Program. A dental LOD determination is not
                 a resource for funding dental care for pre-existing conditions or routine care – for
                 example, untreated cavities, wisdom tooth extraction, and cleanings.




56 │ DODIG-2015-002
                                                                                        Appendixes



Reserve and Service Member Support Office
The RSMSO (formerly known as Military Medical Support Office (MMSO)) is
responsible for the authorization of civilian medical care for RC service members
who incur or aggravate a wound, illness, or injury in the line of duty and do not
reside in the general area of a MTF. In order for the RSMSO to authorize care, the
member’s unit medical representative must submit the RSMSO Medical Eligibility
Verification Worksheet and a copy of orders or drill attendance sheet to the
RSMSO. After the required medical eligibility documents have been submitted to
the RSMSO for the initial episode of care, units can request a pre-authorization for
follow up medical care through the RSMSO, Line of Duty section. This request must
include a Service-approved LOD.




                                                                                   DODIG-2015-002 │ 57
Appendixes




                 Appendix G
                 Mobilization/Demobilization and Deployment/
                 Redeployment Medical Services
                 Soldier Readiness Processing
                 The basic concept of the United States Army SRP is a program to verify individual
                 soldiers’ readiness both pre- and post-deployment. The SRP includes individual
                 soldiers’ administration, evaluations, interviews, and medical examinations.

                 Medical personnel conduct evaluations and examinations to qualify soldiers
                 physical profiles and rate the soldiers on a scale of “1” through “4” for each of
                 physical stamina, upper body, lower body, hearing, eyes, and psychiatric. A physical
                 profile of “1” indicates the highest level of fitness. A physical profile of “2” indicates
                 some medical condition or physical defect that could require activity limitations.
                 A profile of “3” indicates a medical condition or defect that may require significant
                 limitations. A profile of “4” indicates the individual has one or more conditions
                 or defects of such severity that performance of military duty must be drastically
                 limited, and usually is disqualifying. Soldiers also give blood samples to ensure
                 proper blood type is recorded in their records and to have a current HIV test. They
                 also are screened for psychiatric issues, receive a dental exam, receive all required
                 immunizations, and other tests as needed. Additionally, female soldiers will get a
                 pregnancy test.

                 Upon completion of the evaluations and exams, a healthcare provider, who reviews
                 the soldier’s conditions, makes a recommendation to the commander that the
                 soldier is either medically deployable or non-deployable. However, command makes
                 the final decision to deploy a soldier with certain medical conditions.

                 Navy Mobilization and Processing Site/Operational
                 Support Center
                 All mobilized Navy RC service members will be medically screened at the Navy
                 Mobilization and Processing Site (NMPS) for a “fit for duty” determination.
                 Personnel failing initial NMPS medical screening will be referred to the Senior
                 Medical Officer (SMO).

                 The primary mission of NMPS Medical Department is to:

                      •	 mobilize and demobilize Navy RC service members,
                      •	 support medical & dental processing, and
                      •	 verify sailors’ original medical/dental records.




58 │ DODIG-2015-002
                                                                                         Appendixes



The average processing time for mobilizations can average up to 14 days. For
demobilization, the processing time varies with medical requirements, personal
needs, and the number of personnel processing.

Mobilization/Medical In-Processing
The NMPS will ensure all RC service members are “fully medically ready.”
This status includes current physical and dental exams (dental class “1” or “2”),
immunizations updated and current, and lab tests updated and current. Also, the
NMPS ensures RC service members complete appropriate health assessments and
receive appropriate health promotion/preventive counseling.

Demobilization/Medical Out-Processing
All demobilized/post-deployment screenings that were not completed in theater
must be completed at the NMPS; including required lab work. Also, medical
screening consistent with all DoD guidance will be conducted to determine
if there are any medical issues that require follow-up. Issues identified in the
demobilization/post-deployment screening must be resolved prior to release from
the NMPS. Records of any medical care received in theater should be included in
the member’s medical and dental records.

RC service members failing medical out-processing will be retained on active
duty until their physical condition is fully evaluated and resolved. Likewise, a
separation physical will be performed at the NMPS when needed. RC service
members determined “unfit” to demobilize will be retained on active duty to
receive follow‑on medical and/or dental care and treatment necessary to restore
their health.

Unless otherwise directed, RC service members who have completed a
dental class 2 examination within 180 days of their demobilization date do
not require another dental examination.




                                                                                    DODIG-2015-002 │ 59
Appendixes



                 Service-Connected Illnesses or Injuries
                 RC service members who incur or aggravate a Service connected wounds, illnesses,
                 and injuries while activated for more than 29 days are eligible for continued
                 medical care.

                 Activated RC service members injured while on active duty orders of more than
                 29 days may, with the RC service member’s consent, be continued on active duty
                 until the RC service member is determined “fit for duty” or until the resulting
                 incapacitation cannot be materially improved by further hospitalization or
                 treatment and the case has been processed and finalized through a Medical
                 Evaluation Board (MEB) and/or a PEB.

                 RC service members electing not to remain on active duty for treatment, regardless
                 of medical needs, shall have their medical conditions fully documented in their
                 medical record prior to release from active duty. This includes signing a release
                 attesting to the decision despite the identified medical conditions. Additionally,
                 each RC service member will be thoroughly briefed on a personal Medical
                 Continuity of Care Plan for coverage after release from active duty.




60 │ DODIG-2015-002
                                                                                                                                Appendixes




Appendix H
Health Care Assessments
Periodic Health Assessment
The PHA is a screening tool used by the RCs to evaluate the IMR of their Service
members. It can be conducted alone or can be combined with other IMR needs—
for example, dental exam, and immunizations. The PHA is completed annually and
consists of the following:

          •	 an overall assessment of current health and IMR deficiencies,
          •	 identification of potential risk factors that could lead to decreased health,
          •	 identification and recommendation of a plan to minimize potential
             health risks,
          •	 recommendations for treatment of current health problems, and
          •	 an update of the service members’ medical readiness through completion
             of service and an update of medical records.

Pre-Deployment Health Assessment
All DoD personnel deploying outside the continental United States (OCONUS)
for 30 days or more, to a location with non-fixed U.S. MTFs must complete a
Pre‑Deployment Health Assessment (PDHA)27 using the form DD 2795. The
DD 2795 must be completed electronically or in web-enabled format following
Service‑specific directives and using one of the Service specific data systems. 28
The data will be sent electronically through the Service-specific data system
to the Armed Forces Health Surveillance Center. In order for the PDHA to be
completed, the DD 2795 must be reviewed and discussed in a face‑to‑face
interview with a credentialed healthcare provider. The DD 2795 must be
completed or confirmed as current within 120 days of the expected date
of deployment.




	27	
       For OCONUS deployments less than 30 days, OCONUS deployments to areas with fixed U.S. MTFs, and CONUS
       deployments, it is the operational commander’s decisionon whether a PDHA is required prior to deployment.
	28	
       Service specific data systems include service-specific data systems such as Army Medical Protection System (MEDPROS),
       Air Force Preventive Health Assessment and Individual Medical Readiness (PIMR) or Air Force Complete Immunization
       Tracking System (AFCITA), and Navy Electronic Deployment Health Assessment (EDHA).




                                                                                                                           DODIG-2015-002 │ 61
Appendixes



                 Post Deployment Health Re-Assessment
                 The PDHRA is a comprehensive health screening that is used to identify physical
                 and behavioral health concerns associated with deployment and facilitate access
                 to care. All service members who deployed OCONUS for a period of more than
                 30 days to a location with a non-fixed MTF must complete the PDHRA within
                 90 to 180 days after re-deployment/demobilization. A timely completion of the
                 PDHRA is vital to identifying deployment-related health issues before they develop
                 into serious issues.

                 The screening is comprised of these components:

                      •	 post-deployment resilience training,
                      •	 DD 2900, and
                      •	 a confidential, one-on-one discussion with a health care provider.




62 │ DODIG-2015-002
                                                                                         Appendixes




Appendix I
Reserve Health Readiness Program
The RHRP is a Department of Defense (Defense Health Agency) program executed
by its current contractor, Logistics Health Incorporated (LHI). The program is
designed to supplement the RCs readiness mission by providing PHA, PDHA,
PDHRA, and other IMR services that satisfy key deployment requirements.

The RHRP provides medical and dental services to all RCs. RHRP services are
provided on a group or individual basis. A group event generally occurs during drill
weekend and LHI brings the providers, equipment, supplies, and support staff to
the RCs location. Services offered on an individual basis take place in the office of
an LHI network provider. Refer to Table 3 (page 64) for a listing of services RHRP
provides to each RC component.




                                                                                    DODIG-2015-002 │ 63
Appendixes



                 Table 3: RHRP Services Provided to RC Components (as of April 1, 2014)

                       RHRP Service        USAR        ARNG        MARFORRES          USNR          AFRC     ANG
                      Dental Exam           ü            ü              ü               ü            ü       ü
                      Panoramic
                      X-Ray                 ü            ü              ü               ü            ü       ü
                      Dental
                      Treatment             ü            ü
                      PHA                   ü            ü              ü               ü          Pending   ü
                      Audiogram             ü            ü              ü               ü            ü       ü
                      Vision
                      Screening             ü            ü              ü               ü                    ü
                      Prescription
                      Eyewear               ü            ü              ü               ü
                      CVSP Lab              ü            ü              ü               ü
                      HIV Testing           ü            ü                                                   ü
                      PDHRA                 ü            ü              ü               ü            ü       ü
                      Stand Alone
                      MHA                                               ü               ü            ü       ü
                      Immunizations         ü            ü              ü               ü            ü       ü
                      PPD/TB
                      Screening             ü            ü              ü               ü            ü       ü
                      Pregnancy Test
                      Lab Work              ü            ü
                  Source: Defense Health Agency

                 Abbreviations
                 PHA	          Periodic Health Assessment
                 CVSP	         Cardiovascular Screening Program
                 HIV	          Human Immunodeficiency Virus
                 PDHRA	        Post-Deployment Health Reassessment
                 MHA	          Mental Health Assessment
                 PPD/TB	       Purified Protein Derivative/Tuberculosis (Tuberculosis Skin Test)




64 │ DODIG-2015-002
                                                                                             Appendixes




Appendix J
Fit-for-Duty and Deployment Limiting Conditions
Fit-for-Duty
In accordance with DoDI 1332.38, “Physical Disability Evaluation,”
November 14, 1996, E3.P3.2, “General Criteria for Making Unfitness
Determinations,” a service member shall be considered unfit when evidence
establishes that the member, due to physical disability, is unable to reasonably
perform duties of his or her office, grade, rank, or rating (hereafter called duties)
to include duties during a remaining period of Reserve obligation.

     •	 E3.P3.2.2: In making a determination of a member’s ability to so perform
        his/her duties, the following criteria may be included in the assessment.
     •	 E3.P3.2.2.1: The medical condition represents a decided medical risk
        to the health of the member of the welfare of other members were the
        member to continue on active duty of in an Active Reserve status.
     •	 E3.P3.2.2.2: The medical condition imposes unreasonable requirements
        on the military to maintain or protect the member.
     •	 E3.P3.2.2.3: The service member’s established duties during any
        remaining periods of reserve obligation.

Duty Limiting Conditions
In accordance with DoDI 6490.07, “Deployment-Limiting Medical Conditions for
Service Members and DoD Civilian Employees,” February 5, 2010, Enclosure 3,
“Medical Conditions Usually Precluding Contingency Deployment,” a list of all
possible diagnoses and their severity that may cause an individual to be potentially
non-deployable, pending further evaluation would be too extensive. Medical
evaluators must consider climate, altitude, rations, housing, duty assignment, and
medical services available in theater when deciding whether an individual with a
specific medical condition is deployable. In general, individuals with the following
conditions, based upon a medical assessment, shall not deploy unless a waiver
is granted:

     •	 conditions affecting force health protection,
     •	 unresolved health conditions requiring care or affecting performance,
     •	 conditions that could cause sudden incapacitation,
     •	 pulmonary disorders,
     •	 sensory disorders,




                                                                                        DODIG-2015-002 │ 65
Appendixes



                      •	 cardiac and vascular disorders, and
                      •	 mental health disorders
                      •	 Duty Limiting Conditions.

                 Report To Congress
                 House Report 111-491, page 285, to accompany the H.R. 5136, the Ike Skelton
                 National Defense Authorization Act for 2011, request the Secretary of Defense
                 examine the use of, and justification for, the “Fit, But Unsuitable” administrative
                 separation process within the Military Departments and report findings and
                 recommendations to the House and Senate Armed services Committees by
                 May 1, 2011. The following letters and report from the Undersecretary of Defense
                 on pages 67-75 responded to that request.




66 │ DODIG-2015-002
                                                             Appendixes



Office of the Under Secretary of Defense, Personnel
and Readiness Report to Congress: Fit But Unsuitable,
Administrative Separations




                                                        DODIG-2015-002 │ 67
Appendixes



                 Office of the Under Secretary of Defense, Personnel
                 and Readiness Report to Congress: Fit But Unsuitable,
                 Administrative Separations (cont’d)




68 │ DODIG-2015-002
                                                             Appendixes



Office of the Under Secretary of Defense, Personnel
and Readiness Report to Congress: Fit But Unsuitable,
Administrative Separations (cont’d)




                                                        DODIG-2015-002 │ 69
Appendixes



                 Office of the Under Secretary of Defense, Personnel
                 and Readiness Report to Congress: Fit But Unsuitable,
                 Administrative Separations (cont’d)




70 │ DODIG-2015-002
                                                             Appendixes



Office of the Under Secretary of Defense, Personnel
and Readiness Report to Congress: Fit But Unsuitable,
Administrative Separations (cont’d)




                                                        DODIG-2015-002 │ 71
Appendixes



                 Office of the Under Secretary of Defense, Personnel
                 and Readiness Report to Congress: Fit But Unsuitable,
                 Administrative Separations (cont’d)




72 │ DODIG-2015-002
                                                             Appendixes



Office of the Under Secretary of Defense, Personnel
and Readiness Report to Congress: Fit But Unsuitable,
Administrative Separations (cont’d)




                                                        DODIG-2015-002 │ 73
Appendixes



                 Office of the Under Secretary of Defense, Personnel
                 and Readiness Report to Congress: Fit But Unsuitable,
                 Administrative Separations (cont’d)




74 │ DODIG-2015-002
                                                             Appendixes



Office of the Under Secretary of Defense, Personnel
and Readiness Report to Congress: Fit But Unsuitable,
Administrative Separations (cont’d)




                                                        DODIG-2015-002 │ 75
Appendixes




                 Appendix K
                 Extension of Active Duty Orders
                 Active Duty Medical Extension
                 The Active Duty Medical Extension (ADME) program is an Army program designed
                 to voluntarily place RC soldiers on temporary active duty in order to evaluate
                 or treat their Service connected medical conditions or injuries so that they may
                 be returned to back to duty as soon as possible. In order to be eligible for ADME
                 orders, a soldier must have incurred or aggravated a Service-connected wound,
                 injury, or illness while in an inactive-duty-for-training or non-mobilization active
                 duty status. The medical condition must also prevent the soldier from performing
                 his or her Military Occupation Specialty (MOS) or Area of Concentration (AOC)
                 within the confines of a Profile (DA 3349) issued by a military medical authority.

                 Medical Retention Processing
                 The Medical Retention Processing (MRP) program is an Army program designed to
                 compassionately evaluate and treat the RC Warrior in Transition with an in the line
                 of duty incurred wound, illness, or injury, or an aggravated pre-existing medical
                 condition which prevent them from performing the duties required by their MOS
                 and or position. The program applies to outpatient and in-patient Warriors in
                 Transition—for example, RC Warriors currently on active duty mobilized under
                 10 U.S.C. § 12301 (2013) partial mobilization orders for operations in support
                 of the Global War on Terror. A soldier is eligible for MRP when he or she is not
                 expected to return to duty within 60 days from time of injury or if the soldier
                 could return to duty within 60 days, but will have fewer than 120 days left on
                 his or her current mobilization orders.

                 Medical Retention Processing 2
                 The Medical Retention Processing 2 (MRP2) program is an Army program
                 designed to voluntarily place RC Soldiers on temporary active duty for medical
                 evaluation or medical treatment. MRP2 orders apply to RC soldiers with
                 unresolved mobilization connected medical conditions that either were not
                 identified or did not reach optimal medical benefit prior to their release from
                 active duty (REFRAD). The medical condition must have occurred while mobilized
                 under section 12301 (d), title 10, United States Code (10 USC § 12301 (d) [2013])
                 and 10 USC § 12302 (2013) partial mobilization orders for operations in support
                 of Overseas Contingency Operation.




76 │ DODIG-2015-002
                                                                                            Appendixes



Reserve Component Managed Care – Mobilization
Army National Guard soldiers who incurred a line of duty Service-connected wound
illness or injury while mobilized in support of a contingency operation and who
were released from active duty, may voluntarily return to title 10 Active Duty for
care utilizing Reserve Component Managed Care-Mobilization (RCMC-M) orders for
medical treatment or evaluation. Only Soldiers with low risk, low acuity conditions
requiring medical care for 179 days or less are eligible for managed care under
this policy. RCMC-M active duty orders can be published at any time during the
treatment period, based on the severity of the injury or illness diagnosed. The
soldier’s duty location will be the nearest State Armory or United States Army
Reserve unit when the soldier is not attending appointments, and will not exceed
50-mile radius from the soldier’s home of record. While participating in the
RCMC-M program, the soldier will not be permitted to perform title 32 duties or
mission, civilian employment, civilian education, or civilian training classes during
normal duty hours.

Reserve Component Managed Care – Training
Army National Guard soldiers who incurred a LOD, Service-connected wound,
illness, or injury while participating in training, and who were released from
training, may voluntarily return to active duty in order to use Reserve Component
Managed Care-Training (RCMC-T) orders for medical treatment or evaluation. Only
soldiers with low risk, low acuity conditions requiring medical care for 179 days
or less are eligible for managed care under this policy.

RCMC-T active duty orders can be published at any time during the treatment
period, based on the severity of the injury or illness diagnosed. The soldier’s duty
location will be the nearest State Armory or United States Army Reserve unit
when the soldier is not attending appointments, and will not exceed a 50‑mile
radius from the soldier’s home of record. While participating in the RCMC-T
program, the soldier will not be permitted to perform title 32 duties or mission,
civilian employment, civilian education, or civilian training classes during normal
duty hours.




                                                                                       DODIG-2015-002 │ 77
Appendixes



                 Medical Continuation Orders
                 Medical Continuation Orders (MEDCON) orders extend entitlements to Airmen who
                 are unable to perform military duties due to wounds, illnesses, or injuries incurred
                 or aggravated while on orders or in inactive duty training status (IDT). MEDCON
                 eligibility requires a line of duty determination and a finding by a credentialed
                 military health care provider that the Airman is unable to perform military
                 duties. The provider must determine the Airman has an unresolved condition that
                 requires treatment and renders the Airman unable to meet mobility or retention
                 standards. Airmen who meet eligibility criteria for MEDCON orders must volunteer
                 for retention or recall to duty. While on MEDCON orders, the Airman is primarily
                 responsible for medically improving in order to return to full duty or to process
                 through the integrated disability evaluation system (IDES).

                 Medical Hold
                 The Navy and Marine Corps Medical Hold (MEDHOLD) programs are personnel
                 programs developed to allow RC service members serving on active duty for more
                 than 30 consecutive days to remain on active duty for medical care and treatment.
                 MEDHOLD is intended as a short-term medical treatment program, with the
                 ultimate goal of returning the service member to a fit for duty status, or to have
                 them process through the Disability Evaluation System (DES). The benefit Issuing
                 Authorities of the Navy and Marine Corps MEDHOLD programs are responsible for
                 establishing administrative procedures for determining placement of members in a
                 MEDHOLD status, issuing of LOD determination documentation as appropriate, and
                 central tracking and monitoring of members on MEDHOLD and on an LOD.

                 The benefits issuing authority for Navy MEDHOLD is the Reserve Component
                 Command. The benefits issuing authority for the Marine Corps MEDHOLD is the
                 Wounded Warrior Regiment – Reserve Medical Entitlements Division and Medical
                 Review Team. Both Navy and Marine Corps MEDHOLD members require a detailed
                 care plan, placement in a Limited Duty (LIMDU) status, and processed through
                 the Medical Evaluation Board and/or (Integrated) Disability Evaluation System
                 as appropriate.




78 │ DODIG-2015-002
                                                                                           Appendixes




Appendix L
Recommendations for Future Assessments
Interconnectivity of Medical Systems
Throughout this assessment, it was reported that the medical information systems
required to properly manage RC service members medical and dental care did not
always have the ability to share information. This has the potential to degrade the
medical readiness of the RCs. Recommend an assessment dedicated specifically
to the effectiveness of the interconnectivity of all medical systems required to
properly manage the medical and dental status of RC service members.

Self-Reporting Health Assessments
Throughout this assessment, concerns were expressed about the portion of
self‑reporting medical status during health assessments. The first concern was
that RC service members may not actually know they have medical conditions
to report. The second concern was that RC service members may be reluctant
to disclose known medical conditions because of concern of possibly being
denied mobilization/deployment, re-enlistment, or retainability. This has the
potential to degrade the medical readiness of the RCs or risk deploying medically
non‑deployable persons. Recommend an assessment of how RC service members’
self‑reporting on health assessments evaluates the RCs’ actual Individual Medical
Readiness. Likewise, include how self-reporting on periodic and pre-deployment
health assessments ensures that the complete medical status of RC service
members is established prior to mobilization/deployment. Furthermore, assess
how self-reporting on post-deployment health assessments correctly identifies
RC service members Service-related wounds, illnesses and injuries incurred or
aggravated in the line of duty.




                                                                                      DODIG-2015-002 │ 79
                                      Management Comments




Management Comments
Under Secretary of Defense Response




                                            DODIG-2015-002 │ 81
Management Comments



                 Under Secretary of Defense Response (cont’d)




82 │ DODIG-2015-002
                                               Management Comments



Under Secretary of Defense Response (cont’d)




                                                     DODIG-2015-002 │ 83
                                                                             Acronyms and Abbreviations




Acronyms and Abbreviations
         AD Active Duty
      ADME Active Duty Medical Extension
        AFR Air Force Reserve
        AGR Active Guard Reserve
       ANG Air National Guard
      ARNG Army National Guard
     CONUS Continental United States
       CVSP Cardiovascular Screening Program
      DEERS Defense Enrollment Eligibility Reporting System
   DES/IDES Disability Evaluation System/Integrated Disability Evaluation System
        IMA Individual Mobilization Augmentee
        IMR Individual Medical Readiness
        ING Inactive National Guard
         IRR Individual Ready Reserve
     LIMDU Limited Duty
        LOD Line of Duty
 MARFORRES Marine Forces Reserve
    MCIRSA Marine Core Individual Reserve Support Active
       MEB Medical Evaluation Board
   MEDCON Medical Continuation (orders)
  MEDHOLD Medical Hold (Navy and Marine Corps)
       MHA Mental Health Assessment
     MMSO Military Medical Support Office
       MRP Medical Retention Processing
      MRP 2 Medical Retention Processing 2
        MTF Military Treatment Facility
      NMPS Navy Mobilization and Processing Site
      NOSC Navy Operational Support Center
    OCONUS Outside the Continental United States
        P&R Program and Resources
      PDHA Pre (or Post) Deployment Health Assessment
     PDHRA Post Deployment Health Reassessment
        PEB Physical Evaluation Board
        PHA Periodic Health Assessment
     PPD/TB Purified Protein Derivative / Tuberculosis
     RSMSO Reserve and Service Member Support Office




                                                                                        DODIG-2015-002 │ 85
Acronyms and Abbreviations




                 Acronyms and Abbreviations (cont’d)
                           RC Reserve Component
                      RCMC-M Reserve Component Managed Care-Mobilization
                      RCMC-T Reserve Component Managed Care-Training
                      REFRAD Release From Active Duty
                        RHRP Reserve Health Readiness Program
                          SRP Soldier Readiness Processing
                        TAMP Transitional Assistance Management Program
                          TPU Troop Program Unit
                        USAR United States Army Reserve
                        USNR United States Navy Reserve
                       USAFR United States Air Force Reserve




86 │ DODIG-2015-002
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
